Audit Report




OIG-10-009
Audit of the Community Development Financial Institutions
Fund’s Fiscal Year 2009 Financial Statements and Fiscal Year
2008 Statement of Financial Position


November 16, 2009




Office of
Inspector General
Department of the Treasury
 The Community Development Financial Institutions Fund (CDFI) Performance and
Accountability Report (PAR) does not conform to the requirements of Section 508 of
                              the Rehabilitation Act;
          To obtain a Section 508 compliant copy of CDFI’s 2009 PAR,
                                   contact CDFI

                                    Also see:

            Web Accessibility and Section 508 Compliance policy page
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             November 16, 2009


            MEMORANDUM FOR DONNA J. GAMBRELL, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Community Development Financial Institutions
                                    Fund’s Fiscal Year 2009 Financial Statements and Fiscal
                                    Year 2008 Statement of Financial Position


            I am pleased to transmit the attached audited Community Development Financial
            Institutions Fund (CDFI) financial statements for fiscal year 2009 and statement of
            financial position for Fiscal Year 2008. Under a contract monitored by the Office
            of Inspector General, KPMG LLP, an independent certified public accounting firm,
            performed an audit of CDFI’s statements of financial position as of September 30,
            2009 and 2008 and the related statements of operations and changes in net
            position and cash flows for the year ended September 30, 2009. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP identified three significant deficiencies related to
            (1) the accounting process for estimating loan loss reserves; (2) accounting for
            investments; and (3) the preparation and review of the financial statements, which
            were not considered material weaknesses. Further, KPMG LLP found no instances
            of reportable noncompliance with laws and regulations tested.
KPMG LLP also issued a management letter dated November 10, 2009, discussing
a matter involving internal control over financial reporting that was identified during
the audit but was not required to be included in the auditors’ reports. This letter
will be transmitted separately.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on CDFI’s financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated November 10, 2009 and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits, at
(202) 927-5591.

Attachment
Community Development Financial Institutions Fund
     United States Department of the Treasury


      Performance and Accountability Report
                    FY 2009
                                        Table of Contents


Message from the Director……… ………………………………………...…….…….……………...………..……….1
Community Development Financial Institutions Fund Overview………………...…………………...…....…..………2
Program Discussion and Analysis………….…………………………………..….………….……………….……..... 8
        Community Development Financial Institutions Program………………..………….………...………….… 9
        New Markets Tax Credit Program ……………..……………………….….…………………….………….13
        Bank Enterprise Awards Program…………….………………………..……………… ……………………16
        Native Initiatives…………………………….………………………….….………………………………...17
Status of Financial Management……………….……………..….………….….…………………………...…………19
Independent Auditors’ Reports…………………...…….………….…..….………………..………….………....……27
Financial Statements and Notes……………….……..……...…………………..………..……….…..…….…………41


Appendices


   Appendix A: FY 2009 CDFI Fund Award and Allocation Activities
   Appendix B: Total CDFI Fund Awards From Inception
   Appendix C: Glossary of Terms
Message from the Director

I am pleased to present the CDFI Fund’s Performance and Accountability Report for fiscal year 2009. This past
year has presented extraordinary challenges for our nation, and the CDFI Fund has been called upon to play a
significant role in helping to revitalize the economy. As this Report demonstrates, the CDFI Fund has served
with distinction in answering that call.

President Barack Obama views the CDFI Fund as a key part of his strategy to address the economic challenges
within distressed communities, and early this year Congress and the new Administration took major steps to
expand the CDFI Fund’s mission and impact. The first of these was the passage of the American Recovery and
Reinvestment Act (Recovery Act) on February 17, 2009, which provided the CDFI Fund extra funding—$100
million beyond our annual appropriation for fiscal year 2009 and an additional $3 billion of New Markets Tax
Credit allocation authority—to enhance the lending capacity of CDFIs and investments made by Community
Development Entities. Days later, on February 26, President Obama released his budget for the 2010 fiscal year.
The new budget requests an increase in the CDFI Fund’s current budget of $107 million for 2009 to $243.6
million for 2010—an increase of 127 percent.

At the CDFI Fund, we are mindful of the tremendous responsibility that we have been given, and we have been
committed to moving swiftly to implement the new Administration’s agenda. Just four and a half months after
the enactment of the Recovery Act, we announced financial assistance to 59 CDFIs and to 10 Native CDFIs. By
September 1, 2009, we had disbursed 100 percent of the funds awarded to CDFIs through the Recovery Act. We
also re-opened the 2008 New Markets Tax Credit Program application round to award an additional $1.5 billion
of Recovery Act allocation authority within 100 days of enactment, and closed all of the award agreements
within 30 days of the award announcement. And on October 30, we announced $5 billion in NMTC awards,
including $1.5 billion made possible through the Recovery Act, for more than 90 organizations in communities
around the country.

In addition, under supplemental rounds of our CDFI and Native American CDFI Assistance (NACA) programs,
the CDFI Fund has made financial assistance awards totaling $4.4 million to 10 organizations through the
NACA Program and $52.7 million to 62 organizations through the CDFI Program. We have also made awards
totaling more than $22 million to 55 depository institutions under our Bank Enterprise Award Program.

Awarding funds is just one way that the CDFI Fund has been helping to address the economic crisis. Last fall, as
the crisis deepened, we formed a new Advisory Board Subcommittee to determine the impact of the crisis on the
institutions that the CDFI Fund supports and to offer policy recommendations to increase our support. We have
already implemented several of the Subcommittee’s recommendations, including creating a new Office of
Training and Outreach, and launching a new Capacity-Building Initiative for CDFIs.

I am very proud of the CDFI Fund’s outstanding accomplishments in 2009, and I would like to thank the
exceptional men and women of the CDFI Fund for their hard work and dedication to serving low-income
communities across the nation. Indeed, the CDFI Fund’s employees are its greatest asset. Although the road to
economic recovery may be long, I am certain that our commitment to creating economic opportunity for all—
and our record of accomplishments—will only grow as we meet the challenges that lie ahead.

Donna J. Gambrell
Director
The CDFI Fund

                                                              1

                                 CDFI Fund FY 2009 Performance and Accountability Report
Fund Overview
(Unaudited)




                                     2
        CDFI Fund FY 2009 Performance and Accountability Report
Community Development Financial                                             1) the CDFI Program, by making funding
                                                                               available to financial institutions that are
Institutions Fund                                                              certified or eligible to be certified as CDFIs,
                                                                               which in turn provide loans, investments,
                                                                               financial services and technical assistance to
Overview                                                                       underserved populations and low-income
                                                                               communities;
The Community Development Financial Institutions
(CDFI) Fund was created for the purpose of promoting                        2) the NMTC Program, which provides tax
economic and community development through                                     allocation authority to CDEs, enabling investors
investment in and assistance to community development                          in these CDEs to claim tax credits against their
financial institutions (CDFIs). The CDFI Fund’s role in                        Federal income taxes. CDEs, in return, use the
promoting community and economic development was                               capital raised to make investments in low-
expanded in FY 2001 when the Secretary of the Treasury                         income communities;
delegated to the CDFI Fund the responsibility of
administering the New Markets Tax Credit (NMTC)                             3) the BEA Program, which provides monetary
Program. The breadth and depth of the CDFI Fund’s                              awards to banks for increasing their investment
reach was further expanded in FY 2009 with the                                 in low-income communities and/or in CDFIs;
enactment of legislation that created the Capital Magnet
Fund, which will be implemented in FY 2010, subject to                      4) the Native Initiatives, which provides financial
funding availability.                                                          assistance, technical assistance, and training to
                                                                               Native CDFIs and other Native entities
Since its creation in 1994, the CDFI Fund has awarded                          proposing to become or create Native CDFIs;
$1.13 billion to CDFIs, community development                                  and
organizations, and financial institutions through the
CDFI Program, the Bank Enterprise Award (BEA)                               5) the Financial Education and Counseling
Program, and the Native Initiatives. In addition, the                          Program, through which the CDFI Fund shall
CDFI Fund has allocated $26 billion in tax credit                              provide grants to Eligible Organizations to
authority to Community Development Entities (CDEs)                             enable them to provide a range of financial
through the NMTC Program.                                                      education and counseling services to prospective
                                                                               homebuyers.
Authorizing Legislation
                                                                       What is a CDFI?
The CDFI Fund was established as a bipartisan initiative
under the Riegle Community Development and                             Generally, CDFIs are community-based specialized
Regulatory Improvement Act of 1994. The NMTC                           financial institutions that serve low-income people or
Program was authorized through the Community                           work in economically distressed communities, often
Renewal Tax Relief Act of 2000 and reauthorized as part                working in market niches that may be underserved by
of the Tax Relief and Health Care Act of 2006.                         traditional financial institutions.     Only financial
                                                                       institutions certified by the CDFI Fund can receive
CDFI Fund’s Vision and Mission                                         financial assistance awards through the CDFI Program
                                                                       and the Native American CDFI Assistance (NACA)
The CDFI Fund’s vision is an America in which all                      Program. Technical assistance awards are available to
people have access to affordable credit, capital, and                  certified CDFIs and entities that propose to become
financial services. Its mission is to expand the capacity              certified, through both programs.
of financial institutions to provide credit, capital, and
financial services to underserved populations and                      CDFIs provide a unique and wide range of financial
economically distressed communities in the United                      products and services that help their customers build
States. The CDFI Fund achieves its purpose by                          wealth and achieve the goal of participating in the
promoting access to capital and local economic growth                  ownership society. While the types of products made
through:                                                               available are generally similar to those provided by
                                                                       larger mainstream financial institutions (such as
                                                                       mortgage financing for low-income and first-time
                                                                 3
                                    CDFI Fund FY 2009 Performance and Accountability Report
homebuyers, small business lending, and lending for                     A Community Development Entity (CDE) is a domestic
community facilities), CDFIs often lend to and make                     corporation or partnership that is an intermediary vehicle
equity investments in markets that may not be served by                 for the provision of loans, investments, or financial
regulated financial institutions. CDFIs may offer rates                 counseling in low-income communities through the
and terms that are more flexible than those provided by                 NMTC Program. CDEs must demonstrate a primary
traditional financial institutions. CDFIs also provide                  mission of serving low-income communities and low-
services that help ensure that credit is used effectively,              income people, and must demonstrate that they are
such as technical assistance to small businesses, home                  accountable (through representation on a governing
buying and credit counseling to consumers. CDFIs                        board or advisory board) to residents of low-income
include regulated institutions such as community                        communities. CDEs are certified as such by the CDFI
development banks, credit unions, and non-regulated                     Fund and are eligible to apply for allocation of tax credit
institutions such as loan funds and venture capital funds,              authority through the NMTC Program.
among others.
                                                                        Many CDEs create multiple subsidiary CDEs to own
Certification of Community Development                                  specific assets or classes of assets, and thus the number
                                                                        of CDEs grew to 3,938 as of September 30, 2009.
Financial Institutions and Community                                    Benefits of CDE certification include being able to: (1)
Development Entities                                                    apply to the CDFI Fund to receive an allocation of
                                                                        NMTC authority to offer to investors in exchange for
CDFI certification is a designation conferred by the                    equity investments in the CDE and/or its subsidiaries; or
CDFI Fund. An organization must be a legal entity and                   (2) receive loans or investments from other CDEs that
meet the following six statutory and regulatory criteria:               have received a NMTC allocation. CDEs must be
                                                                        certified in order to receive allocations of tax credit
1. Has a primary mission of promoting community                         authority. The table below shows the totals of certified
   development;                                                         CDFIs and CDEs through FY 2009.
2. Serves principally an investment area or targeted
   population;
                                                                                    Annual Number of Certified
3. Is an insured depository institution, or makes loans or
                                                                                        CDFIs and CDEs
   development investments as its predominant business
   activity;                                                               End of FY           CDFIs            CDEs
4. Provides development services (such as technical
                                                                             1997               190
   assistance or counseling) in conjunction with its
   financing activity;                                                       1998               262                 -
5. Maintains accountability to its target market; and                        1999               334                 -
6. Is a non-governmental entity and cannot be controlled                     2000               415                 -
   by any governmental entities.
                                                                             2001               468                31
CDFI certification is a requirement for accessing a                          2002               625               541
financial assistance award from the CDFI Fund through                        2003               694              1,184
the CDFI Program and the NACA Program, and certain                           2004               728              1,585
benefits through the BEA Program. The term of CDFI
                                                                             2005               752              1,954
certification is three years, after which CDFIs must apply
for recertification in order to maintain their initial                       2006               762              2,294
certification. As of September 30, 2009, there were 798                      2007               778              2,680
certified CDFIs. During FY 2009, 55 CDFIs were newly                         2008               808              3,434
certified, 14 more than were certified in the prior year,                    2009               798              3,938
which represents a 34 percent increase. Nevertheless,
the overall number of certified CDFIs declined by 1.2                   CDEs are headquartered in 49 states, the District of
percent in 2009 due to increased mergers and                            Columbia, Puerto Rico, and the U.S. Virgin Islands.
acquisitions — particularly among banks, thrifts, bank                  CDFIs are located headquartered in all 50 states, the
holding companies, and credit unions — and attrition in                 District of Columbia, Guam, Puerto Rico, and the U.S.
the certification status of other institutions.                         Virgin Islands.

                                                                  4
                                     CDFI Fund FY 2009 Performance and Accountability Report
Community Development Financial Institutions                            was a requirement that Treasury prescribe regulations to
Program: Performance Goal: Build the capacity and                       ensure that non-metropolitan (rural) counties receive a
coverage of CDFIs to provide credit, capital, and related               proportional allocation of Qualified Equity Investments
services to underserved markets.                                        (QEIs).

Through the CDFI Program, the CDFI Fund provides                        Calendar Year 2002 was the first year in which
financial assistance in the form of grants, loans, and                  applications for NMTC authority were submitted to the
equity investments to CDFIs, and technical assistance                   CDFI Fund. As of the end of October 30, 2009, seven
grants to CDFIs and entities that propose to become                     allocation rounds have been completed providing
certified CDFIs.                                                        allocations of tax credit authority that will support, in the
                                                                        aggregate, equity investments of $2,626 billion,
•   Financial assistance (FA) awards are in the form of                 including the $3 billion in allocation authority authorized
    grants, loans, and equity investments to CDFIs that                 under the American Reinvestment and Recovery Act
    have comprehensive business plans for creating                      (Recovery Act).
    community development impact and that
    demonstrate the ability to leverage private sector                  Bank Enterprise Award Program: Performance Goal:
    sources of capital.                                                 Increase FDIC-insured institutions’ investments in
                                                                        community development and economic revitalization in
•   Technical assistance (TA) awards are for CDFIs and                  distressed communities.
    entities proposing to become CDFIs in order to build
    their capacity to advance community development                     The BEA Program recognizes the key role played by
    and meet capital access needs in their target markets.              traditional financial institutions in community
    TA awards can also be accessed by larger and more                   development lending and investing. Through the BEA
    established CDFIs to support their continued                        Program, the CDFI Fund provides monetary awards to
    development.                                                        regulated banks and thrifts for increasing their
                                                                        investments and financial activities in economically
New Markets Tax Credit Program: Performance                             distressed communities (those with high poverty and
Goal: Attract private sector capital into low-income                    unemployment) and/or investments in CDFIs. The size
communities through CDEs.                                               of the award is a percentage of the increase in activities
                                                                        from one annual reporting period to the next.
The NMTC Program spurs the investment of new private
sector capital into low-income areas through CDEs,                      Native Initiatives: Performance Goal: Build the
which in turn use privately managed investment vehicles                 capacity and coverage of CDFIs and other institutions to
to make loans and equity investments in businesses and                  provide credit, capital, and related services to Native
real estate projects in low-income communities.                         Communities.

By making an equity investment in a CDE, individual                     The CDFI Fund’s Native Initiatives are intended to assist
and corporate investors can receive a tax credit against                entities in overcoming barriers that prevent access to
their federal income taxes worth 39 percent of the value                credit, capital, and financial services in Native American,
of the amount invested in the CDE over 7 years.                         Alaskan Native, and Native Hawaiian communities. The
                                                                        Native Initiatives’ central component is the Native
The NMTC Program was authorized under the                               American CDFI Assistance (NACA) Program, which
Community Renewal Tax Relief Act of 2000. The                           aims to increase the number and capacity of existing or
statute included $15 billion in allocation authority for                new CDFIs serving Native Communities. In addition,
seven years.      Under the Hurricane Katrina Gulf                      the Native Initiatives provide training to help strengthen
Opportunity (GO) Zone Act of 2005, an additional $1                     and develop Native CDFIs.
billion in allocation authority was directed to the
rebuilding and renewal of the GO Zone. The NMTC
Program was reauthorized for one year, through the end
of 2008, as part of H.R. 6111 the Tax Relief and Health
Care Act of 2006. A further provision allowed for an
additional $3.5 billion in tax allocation authority under
the program through 2009. Included in this provision
                                                                  5
                                     CDFI Fund FY 2009 Performance and Accountability Report
Financial Education and Counseling Program:                                               Sources of CDFI Fund Funding
Performance Goal: Provide grants to Eligible                                                        (amounts in millions)
Organizations to enable them to provide a range of
financial education and counseling services to                                                                    FY 2009         FY 2008
prospective homebuyer.
                                                                         Appropriations                              $107.0       $ 94.0
                                                                         Prior Year Amounts Deobligated,
The ultimate program goals of the FEC Program are to                      Used to Fund Current Year
identify successful methods resulting in positive                         Obligations                                   0.5          1.0
behavioral change for financial empowerment, and to                      Carryover from Prior Year                      1.0          1.9
establish program models for organizations to carry out                  Borrowing Authority Used                       0.9         2 .5
effective financial education and counseling services to
prospective homebuyers.                                                  Total Sources of Funds                     $109.4        $ 99.4

                                                                         Note – above amounts do not include appropriations received for the Recovery
Performance Measures: This Performance and                               Act nor those pertaining to credit subsidy reestimates.
Accountability Report includes a discussion of the
performance measures the CDFI Fund considers
the most significant. For a discussion of all of the CDFI                In FY 2009, the CDFI Fund used funding of $109.4
Fund's performance measures, see the applicable                          million as follows:
appendix in the FY 2009 Performance and
Accountability Report for the Department of the                                                     Uses of Funding
Treasury.                                                                                           (amounts in millions)

                                                                                                                    FY 2009 FY 2008
Allocation of CDFI Fund Funding
                                                                         Amounts Funded
The CDFI Fund’s appropriations comprise program                           CDFI Program                                 $59.8          $54.2
funds and administrative funds. Program funds are                         BEA Program                                   22.0           20.6
amounts that are used for program awards (such as                         Native Initiatives                             8.5            9.2
                                                                          New Markets Tax Credits                        4.2            0.0
grants, loans, equity investments, and training contracts);
                                                                          Financial Education                            2.0            0.0
administrative funds are amounts used to cover the costs                  Administrative Costs                          12.9           14.6
to administer all programs, including the NMTC
Program. As noted above, the Secretary has delegated                     Total Amounts Funded                          $109.4         $98.6
authority to the CDFI Fund to allocate tax credit
                                                                         Amounts Not Obligated                              0.0            0.8
authority through the NMTC Program. As NMTCs are
not monetary awards, they are not reflected in the chart                 Total Funding Used                           $109.4           $99.4
below. NMTC Program funding (as shown in the chart)
represents program administration costs.

Sources of Funding
                                                                                        FinancialAmounts Funded in FY 2009
                                                                                       Education,    (amounts in millions)
Congress appropriates funding annually to the CDFI                                        $2.0           Administrative
                                                                          New Markets
Fund; each appropriation can be used over two fiscal                      Tax Credits,                    Costs, $12.9
years.     Appropriations include fiscal year budget                          $4.2
authority, and any, unobligated funds from the prior year                     Native                                         CDFI
                                                                            Initiatives,
may be carried over. The annual appropriation amount                            $8.5
                                                                                                                           Program,
                                                                                                                            $59.8
includes borrowing authority to make loans.



                                                                            BEA Program,
                                                                               $22.0



                                                                   6
                                      CDFI Fund FY 2009 Performance and Accountability Report
ORGANIZATION OF THE CDFI FUND

The CDFI Fund’s organizational structure consists of the respective offices of the Director, Chief Operating Officer,
Manager for Legislative and External Affairs, Legal Counsel, CDFI and Native Program Manager, NMTC and BEA
Program Manager, Certification, Compliance Monitoring & Evaluation Manager, Financial Strategies and Research
Manager, Training and Outreach Manager, Supervisory IT Specialist, and various program and administrative support
offices. The organization chart of the CDFI Fund is shown below.


                    COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND
                                  ORGANIZATION CHART
                                    SEPTEMBER 2009




                                                                          Director              Legal Counsel




                                                 Legislative & External
                                                    Affairs Manager



                                                                    Chief Operating
                                                                        Officer


    Training & Outreach   Financial Strategies          Program Manager       Program Manager       Compliance Monitoring   Supervisory IT
          Manager         & Research Manager             (CDFI& Native)         (NMTC & BEA)        & Evaluation Manager      Specialist




                                                                              7
                                           CDFI Fund FY 2009 Performance and Accountability Report
Program
Discussion
and Analysis
(Unaudited)




                                      8
         CDFI Fund FY 2009 Performance and Accountability Report
Community Development                        Financial                 long-standing goal of the CDFI Fund. By the end of
                                                                       FY 2009, the CDFI Fund certified 798 CDFIs
Institutions Program                                                   serving rural and urban areas in all states and the
                                                                       District of Columbia, Guam, Puerto Rico, and the
Through the Community Development Financial                            Virgin Islands.
Institutions (CDFI) Program, the CDFI Fund uses
federal resources to invest in and build the capacity of               Breakdown of Types of Certified CDFIs
CDFIs to serve low-income people and communities                       Twenty-eight percent of certified CDFIs are
lacking adequate access to affordable financial products               headquartered in the five most populous states (New
and services. Through the CDFI Program, the CDFI                       York, Texas, North Carolina, Florida, and California).
Fund provides monetary awards for Financial Assistance
(FA) and Technical Assistance (TA). CDFIs use FA                       CDFIs include banks, credit unions, loan funds, and
awards to further goals such as:                                       venture capital funds, with each providing a different
                                                                       mix of products geared to reach specific customers, as
    •   Economic development (job creation, business                   follows:
        development, and commercial real estate
        development);                                                       •    Community development banks are for-profit
                                                                                 corporations that provide capital to rebuild
    •   Affordable housing (housing development and                              economically distressed communities through
        homeownership); and                                                      targeted lending and investment;
    •   Community development financial services                            •    Community development credit unions are
        (provision of basic banking services to                                  non-profit cooperatives owned by members
        underserved communities and financial literacy                           that promote ownership of assets and savings
        training).                                                               and provide affordable credit and retail
                                                                                 financial services to low-income people;
Certified CDFIs
                                                                            •    Community development loan funds (usually
A certified CDFI is one that has been certified by the                           non-profits)    provide     financing       and
CDFI Fund as meeting all of the following statutory and                          development      services    to     businesses,
regulatory criteria:                                                             organizations and individuals in low-income
                                                                                 urban and rural areas and can be further
1. Has a primary mission of promoting community                                  categorized based on the type of client served:
   development;                                                                  micro-enterprise, small business, housing and
2. Serves principally an investment area or targeted                             community service organizations; and
   population;
3. Is an insured depository institution, or makes loans                     •    Community development venture capital
   or development investments as its predominant                                 funds include both profit and non-profit
   business activity;                                                            organizations that provide equity and debt-
4. Provides development services (such as technical                              with-equity features for businesses in
   assistance or counseling) in conjunction with its                             distressed communities.
   financing activity;
5. Maintains accountability to its target market; and
6. Is a non-governmental entity and cannot be                          CDFI Customers
   controlled by any governmental entities.
                                                                       CDFI customers include (among others):
In addition to seeking certification to receive financial
and technical assistance from the CDFI Fund,                                •    Small business owners who provide
organizations pursue CDFI certification in order to                              employment opportunities and needed services
leverage CDFI Funds from non-federal sources such as                             to disadvantaged communities;
banks, foundations, and state and local governments.

The certification of organizations as CDFIs has been a
                                                                 9
                                    CDFI Fund FY 2009 Performance and Accountability Report
    •   Affordable housing developers who construct                    FY 2009 Awards
        and rehabilitate homes in low-income
        communities;
                                                                       In FY 2009, the CDFI Fund conducted two FA funding
                                                                       rounds – one using funds allocated through the
    •   Community facilities used to provide child                     American Recovery and Reinvestment Act of 2009
        care, health care, education and social services               (Recovery Act) (the initial funding round) and one using
        in underserved communities;                                    funds through the FY 2009 appropriation (the
                                                                       supplemental funding round).
    •   Commercial real estate developers who
        finance the acquisition, construction or                       Applicants that did not receive awards in the initial
        rehabilitation of retail, office, industrial and               funding round were considered for supplemental
        community facility space in low-income                         funding round awards, along with the applicants that
        communities; and                                               specifically submitted supplemental funding round
                                                                       applications. (Details on Recovery Act awards can be
    •   Individuals who are provided affordable                        found in a separate section of the PAR ). Supplemental
        banking services including checking and                        funding round awards were announced in early October
        savings accounts, alternatives to predatory                    2009.
        financial companies, and mortgages and other
        kinds of loans.                                                In the supplemental funding round, the CDFI Fund
                                                                       received 194 applications and considered 123 unfunded
Financial Assistance                                                   applicants from the initial funding round. Therefore, a
                                                                       total of 317 applicants were considered for the
The CDFI Program consists of two components,                           supplemental funding round, in total requesting an
Financial Assistance and Technical Assistance (FA                      estimated total of $532 million.
and TA). FA is by far the most subscribed and consists
of two categories: Category 1 – Small and Emerging                     Of the 317 supplemental round applicants, 100 were in
CDFI Assistance (SECA); and Category 2 – Core.                         the SECA category, with 38 unfunded applicants from
Through the CDFI Program, the CDFI Fund invests in                     the initial funding round and 62 from the supplemental
CDFIs that provide financing and related services to                   funding round.          SECA applicants requested
communities and populations lacking access to credit,                  approximately a total of $63 million.           In the
capital, and financial services.                                       supplemental funding round, the CDFI Fund considered
                                                                       217 Core applicants, with 85 unfunded applicants from
Applicants applying to the CDFI Fund must                              the initial funding round and 132 that specifically
demonstrate they have the financial and managerial                     applied for supplemental funding round awards. In
capacity to impact the communities they serve.                         combination, Core applicants requested a total of $443
Applicants must be able to: 1) provide affordable and                  million.
appropriate financial products and services; 2) be a
viable financial institution; 3) be able to use CDFI                   Table 1 – FY 2009 FA Awards
Fund awards effectively; and 4) have the ability to                              Awards     Amount        Awards  Amount
leverage their awards with non-federal funding.                                             Awarded               Awarded
                                                                       Round     Initial Round            Supplemental Round
The CDFI Program makes FA awards in the form of                        Core      40         $79,050,000   46      $44,910,000
equity investments, loans, deposits, or grants,                        SECA      19         $10,950,000   16      $7,805,000
depending on the type of non-federal matching funds                    Totals    59         $90,000,000   62      $52,715,000
the applicant brings to the initiative. FA awards
enable CDFIs to leverage private capital for affordable
financial products and services in economically
distressed markets. CDFIs respond to this demand                       The CDFI Fund made over $52.7 million awards to 62
providing loans, investments, training, technical                      organizations in the supplemental funding round.
assistance, and basic financial services such as checking              Sixteen SECA applicants were awarded a total of $7.8
or savings accounts.                                                   million; 46 Core applicants received a total of $45

                                                                10
                                    CDFI Fund FY 2009 Performance and Accountability Report
million. All awards were for FA only.                       (Please see           Twenty-seven organizations received awards totaling
Table 1 – FY 2009 FA Awards.)                                                     about $2.4 million. The following graph shows the total
                                                                                  amount of Technical Assistance awards since 2002.
The following graph shows the total amount of FA funds
requested and awarded since FY 2004. The CDFI                                                             Tot al Amount of TA Aw ards
Program has consistently received more applications                                                            (amounts in millions)
than it can fund. In FY 2009, it received almost twice as
much funding than it had in FY 2007, but it also                                              $6                    $4.9
received more applications requesting more dollars. The                                       $5
CDFI Fund capped awards at $1 million, as in past                                             $4
years, in an attempt to meet the heavy demand. By                                             $3                           $2.1 $1.9                 $2.4
                                                                                                                                              $2.0
capping award amounts, the CDFI Fund is able to make                                          $2      $0.8                             $1.5
more awards.                                                                                  $1             $0.3
                                                                                              $0
                                                                                                      02 00 3 0 04 0 05 006 00 7 0 08 0 09
        CDFI Financial Assistance: Amounts                                                         20    2    2    2    2   2    2    2
        Requested and Awarded ($millions)                                                                              Fiscal Year



 $300                                                                             Recovery Act 2009:
 $250                                                                             Financial Assistance
 $200                                                  $ 270    $ 259
 $150                                         $ 200
            $ 125    $ 160     $ 147 $ 138
 $100                                                                             In February 2009, the CDFI Program received $90
  $50    $ 47     $ 33     $ 25            $ 52              $ 90
                                    $ 26            $ 53
   $0                                                                             million in funds through the Recovery Act. In order to
        2004 2005 2006 2007 2008 2009 ARRA                                        disburse the funding as quickly and efficiently as
                             Fiscal Year                                          possible into the national economy, Recovery Act
                                                                                  funding was used for awards made through the initial
             Amount Aw arded          Amount Requested                            funding round

                                                                                  Applicants that did not receive an award in the initial
Technical Assistance                                                              funding round were also considered for an award during
                                                                                  the supplemental funding round (using FY 2009
Through the Technical Assistance (TA) component of                                appropriated dollars), as described above. The Recovery
the CDFI Program, the CDFI Fund provides grants to                                Act waived the matching funds requirement, as well as
build the capacity of both start-up and existing CDFIs.                           the $5 million limit on awards that an awardee can
TA grant funds can be used for items such as staff                                receive in a 3-year period.
salaries, benefits, staff training, professional services,
supplies and equipment. Applicants often request                                  In the initial funding round (using Recovery Act
funds to analyze their target markets, develop lending                            dollars), the CDFI Program considered 125 applicants
policies and procedures, or to build staff lending                                requesting a total of $229.7 million. Fifty-nine awards
capacity.                                                                         were made totaling $90 million, with individual awards
                                                                                  ranging from $500,000 to $2 million (Table 1). Awards
More established CDFIs also use TA grants to build                                were announced on June 29, 2009 and funds were fully
their capacity to provide new products, serve current                             disbursed within 60 days. All Recovery Act awards
target markets in new ways, or enhance the efficiency                             under the CDFI Program were for FA only.
of their operations with upgraded computer hardware
and software.
                                                                                  CDFI Program Performance
FY 2009 Awards                                                                    CDFI Program awardees report their annual
                                                                                  performance to the CDFI Fund through the CDFI Fund’s
In FY 2009, the CDFI Fund received 79 applications                                web-based reporting system, the Community Investment
requesting more than $7.4 million in TA grants.                                   Impact System (CIIS). Each awardee has 180 days from
                                                                           11
                                               CDFI Fund FY 2009 Performance and Accountability Report
its fiscal year end to report through CIIS. This time                                 Performance of CDFI Program
allows the awardee to complete its annual audit and                                    Awardees During FY 2009 *
enables the CDFI Fund to verify reported information
against the audit.                                                     1. # of Full Time Jobs Created or Maintained (77)** 70,260
                                                                       2. # of Businesses Financed (104)**                      10,792
The FY2009 performance information provided herein
                                                                       3. # of Commercial Real Estate Properties
pertains to each awardee’s performance results for
                                                                          Financed (55) **                                        1,676
program year 2008. It should also be noted that the lag
in performance reporting reflects the time it takes to                 4. # of Affordable Housing Units Financed (22)**           2,133
deploy funds and make investments for which actual and
projected results can be estimated. In practice, the lag               5. # of Homebuyers Who Obtain Financing (50) **            1,998
reflects the length of time from notice of award to award              6. # of Accounts Opened to the Unbanked (11)**             4,235
disbursement, the time it takes for an awardee to deploy               7. Dollars, in millions, Leveraged with Private
the funds, and additional time it takes to compute and                    Investments**                                          $1,298
report awardee impact information to the CDFI Fund’s
CIIS reporting system. The performance results for                     8. # of Individuals Provided with Financial
program year 2008 are summarized in the table to the                      Literacy and Other Training (126)**                  159,546
right and are based on information entered into CIIS by                9. Individual Development Accounts (IDAs)
reporting CDFI Program awardees.                                          Provided by CDFIs (53)**                                6,478

                                                                       10. Dollar amount, in millions, of IDAs (54)**             $5.86

                                                                       * FY2009 PAR Data based on Program activities reported in 2008.

                                                                       ** Numbers in parentheses are the number of CDFI Program awardees
                                                                         reporting on this particular measure.




                                                                12
                                    CDFI Fund FY 2009 Performance and Accountability Report
New Markets Tax Credit Program                                                   authority made available under the American
                                                                                 Recovery and Reinvestment Act (Recovery Act) of
The New Markets Tax Credit (NMTC) Program permits                                2009.
taxpayers to receive a credit against federal income taxes
for making Qualified Equity Investments (QEIs) in                                Allocations are awarded annually through a
designated Community Development Entities (CDEs).                                competitive process. To date, the CDFI Fund has
Substantially all of the qualified equity investment must                        completed seven allocation rounds and has made 495
in turn be used by the CDE to provide investments in                             awards totaling $26 billion in allocation authority,
low-income communities.                                                          including the $3 billion of Recovery Act-authorized
                                                                                 allocations — $1.5 billion through the 2008 NMTC
The credit provided to the investor totals 39 percent of                         allocation round, and $1.5 billion through the 2009
the cost of the investment and is claimed over a seven-                          NMTC allocation round.
year credit allowance period. In each of the first three
years, the investor receives a credit equal to five
percent of the total amount paid for the stock or capital                                     A p p lica tio n s             A llo ca tio n s
interest at the time of purchase. For the final four                                                     A m ount                        A m ount
                                                                                  R o un d   N u m b er (B ill io n s)   N u m b er     (B illi o n s)
years, the value of the credit is six percent annually.
Investors may not redeem their investments in CDEs                                    1         345         $ 2 5 .8        66               $ 2 .5
                                                                                      2         271         $ 3 0 .4        63               $ 3 .5
prior to the conclusion of the seven-year period.                                     3         208         $ 2 2 .9        41               $ 2 .0
                                                                                      4         254         $ 2 8 .3        63               $ 4 .1
To qualify as a CDE, an entity must be a domestic                                     5         258         $ 2 7 .9        61               $ 3 .9
corporation or partnership that: 1) has a mission of                                  6         239         $ 2 1 .3        102              $ 5 .0
serving, or providing investment capital for, low-                                    7         249         $ 2 2 .5         99              $ 5 .0
income communities or low-income persons; 2)                                                   1 ,8 2 4    $ 1 7 9 .1       495             $ 2 6 .0
maintains accountability to residents of low-income
communities through their representation on a
governing board of or advisory board to the entity; and                          Demand for the tax credits has been high since
3) has been certified as a CDE by the CDFI Fund. As                              program inception, as 1,824 applicants have requested
of September 30, 2009, 3,938 organizations were                                  credits supporting in total over $179 billion in equity
certified as CDEs by the CDFI Fund, compared to                                  investments – roughly seven times the amount of
3,434 as of one year earlier.                                                    allocation authority available for distribution by the
                                                                                 CDFI Fund. Through the first seven allocation rounds,
         Number of Certified Community Development Entities                      only 27 percent of applicants were selected to receive
                              At Year End                                        an award. The average tax credit allocation award
 4,000                                                          3,938            through the first seven rounds was approximately
 3,500                                                  3,434                    $52.5 million.
 3,000                                          2,680
 2,500                                  2,294
 2,000                  1,639
                                1,953                                            Recovery Act 2009
 1,500          1,194
 1,000    558
   500
                                                                                 2009 NMTC Allocation Round
     -                                                                           Summary
         2002 2003 2004 2005 2006 2007 2008 2009
                                Fiscal Year                                      In October of 2009, the CDFI Fund announced that 99
Results of First Seven NMTC Allocation                                           applicants were awarded $5.0 billion in NMTC
                                                                                 allocation authority, including $1.5 billion in Recovery
Rounds                                                                           Act-authorized allocation authority. The 99 allocatees
                                                                                 are headquartered in 30 different states, the District of
Since inception of the NMTC Program, the CDFI                                    Columbia, and Puerto Rico and anticipate making
Fund has been authorized to allocate to CDEs the                                 awards in 49 different states, the District of Columbia,
authority to issue to their investors a total of $26                             and Puerto Rico.
billion in equity against which NMTCs can be
claimed, including $3 billion of special allocation
                                                                          13
                                              CDFI Fund FY 2009 Performance and Accountability Report
In the 2009 allocation round, the CDFI Fund                                 Program will      be   invested   in   low-income
implemented a statutory requirement to ensure that                          communities.
non-metropolitan (i.e., rural) counties receive a
proportional allocation of Qualified Equity
Investments (QEIs). The CDFI Fund sought to ensure
                                                                       NMTC Activities to Date
that: 1) the number of “Rural CDEs” (i.e., CDEs that
                                                                       Allocation agreements have been executed with each
focus at least 50 percent of their activities in non-
                                                                       of the 396 allocatees from the first six rounds. As of
metropolitan areas) were proportionately represented
                                                                       September 30, 2009, allocatees had reported raising
in the awardee pool; and 2) at least 20 percent of the
                                                                       QEIs totaling over $14.3 billion.          This figure
total NMTC dollars would be invested in invested in
                                                                       represents over 73.3 percent of the $19.5 billion in
non-metropolitan areas. As a result, seven of the 99
                                                                       allocation authority issued to CDEs through calendar
awardees are rural CDEs; and the 99 awardees will
                                                                       year 2008.
collectively invest a minimum of approximately $965
million dollars in non-metropolitan communities.
                                                                       Allocatees report QEI and QLICI activity to the CDFI
                                                                       Fund through the Community Investment Impact
These 99 allocatees have committed to achieving
                                                                       System (CIIS). Allocatees that have raised QEIs are
results above and beyond minimal program
                                                                       required to complete an annual Institution Level
requirements:
                                                                       Report (ILR) in CIIS. Allocatees that have made
                                                                       QLICIs are also required to submit an annual
•   Ninety-six of the 99 allocatees indicated that 100                 Transaction Level Report (TLR) in CIIS.            An
    percent of their investment dollars will be made                   allocatee’s ILR, TLR, and audited financial statements
    either in the form of equity, equity equivalent                    are due 180 days after the end of its fiscal year.
    financing, or debt that is at least 50 percent below
    market and/or is characterized by at least five                    All results in this section represent the allocatees’ data
    concessionary features, with the remaining three                   reported for 2008. As shown in the table below,
    allocatees committing to providing debt that is at                 allocatees reported making $2.89 billion of loans and
    least 33 percent below market and/or characterized                 investments in Qualified Active Low Income
    by at least three concessionary features. Such                     Community Businesses (QALICBs) in FY 2008, and a
    features include, among other things: subordinated                 total of $11.86 billion of loans and investments in
    debt, reduced origination fees, higher than                        QALICBs since the program’s inception. In FY 2008,
    standard loan-to-value ratios, lower than standard                 59 percent of the dollars invested were invested in “real
    debt service coverage ratios, non-traditional                      estate QALICBs (i.e., businesses that develop or lease
    collateral, and longer than standard amortization                  real property for use by others).
    periods.
                                                                       The remaining 41 percent of the dollars were invested in
•   Ninety-five of the allocatees indicated that at least              “non-real estate QALICBs” (i.e., operating businesses)
    90 percent of their activities will be provided in                 in low-income communities. The allocatees reported
    areas of higher economic distress (and/or areas                    that 98.9 percent of the loans and investments they
    targeted for development by other government                       provided in FY 2008 had better rates and terms than
    programs) than are minimally required under                        could be offered in the prevailing market. Finally, in FY
    NMTC Program rules, including 91 that indicated                    2008, allocatees also reported making over $259 million
    that 100 percent of their activities will be provided              in direct investments into other CDEs, purchasing
    in such areas.                                                     $128.2 million in loans from other CDEs, and providing
                                                                       financial counseling and other services to 5,493
•   All 99 of the allocatees indicated that they will                  businesses in low-income communities.
    invest more than the minimally required 85
    percent of QEI dollars into Qualified Low-Income
    Community Investments (QLICI), and 96 of the 99
    allocatees indicated that at least 95 percent of their
    QEI dollars will be invested into qualified low-
    income community investments.               In real
    dollars, this means at least $630 million above and
    beyond what is minimally required by the NMTC
                                                                14
                                    CDFI Fund FY 2009 Performance and Accountability Report
                                             Performance of NMTC Allocatees
                                                                                                       FY 2003 - FY 2009
Type of QLICI                                                            FY 2009 Performance
                                                                                                       Cumulative Performance*
QALICB: Real Estate
   Loans and investments supporting real estate development                      $1.694 billion                 $7.702 billion
   and rehabilitation in low-income communities.                             417 loans/investments         1,695 loans/investments
QALICB: Non-Real Estate
   Loans and investments supporting businesses operating in                      $1.195 billion                 $4.162 billion
   low-income communities.                                                   415 loans/investments         1,638 loans/investments
CDE
   Loans and investment in other CDEs.                                            $259.0 million               $535.5 million
                                                                              77 loans/investments          167 loans/investments
Loan Purchases
    Purchase of loans from CDEs.                                                  $128.2 million                $282.5 million
FCOS
    Investment in Financial Counseling and Other Services                          10.9 million                  23.9 million
    (FCOS).
    Number of businesses receiving FCOS.                                 5,493 businesses served          14,886 businesses served

* Cumulative performance is based on data available as of September 14, 2009. Each year, allocatees are permitted to update data
reported in previous fiscal years to correct errors or provide newly available information. As a result, the cumulative figures may not
exactly add up to the FY03 thru FY08 annual performance figures reported by the CDFI Fund in this and previous Performance and
Accountability reports. Please note that data for square footage of commercial real estate projected to be developed and rehabilitated,
the number of full-time equivalent (FTE) construction jobs projected to be created or maintained, and the number of full-time
equivalent (FTE) jobs projected to be created or maintained will not be reported in the PAR 2009 because, at the time of publication,
the CDFI Fund staff was revalidating the methodology for computing these performance data, in consultation with GAO.




                                                                    15
                                        CDFI Fund FY 2009 Performance and Accountability Report
Bank Enterprise Award Program                                          helped to create and sustain a network of CDFIs.
                                                                       CDFIs serve as conduits for banks to partner with to
Through the Bank Enterprise Award (BEA) Program,                       better serve highly distressed neighborhoods.
the CDFI Fund recognizes the key role played by
insured depository institutions in community                           Eligibility
development lending and investing. The program
provides incentives for regulated banks and thrifts to                 All FDIC-insured depository institutions are eligible to
invest in CDFIs and to increase their lending and                      apply for a BEA Program award. The BEA Program
financial services in economically distressed                          rewards actual increases in the dollar volume of
communities. Providing monetary awards for                             Qualified Activities from a Baseline Period to a later
community reinvestment leverages the CDFI Fund’s                       Assessment Period. Qualified Activities for the BEA
dollars and puts more capital to work in distressed                    Program are divided into three priority areas:
communities throughout the nation. The BEA Program
is highly targeted to areas with larger populations: in                1. CDFI-Related Activities: Equity investments
general, approximately 4,000 Census Tracts qualify as                     (grants, stock purchases, purchases of partnership
distressed communities under the program.                                 interests or limited liability company membership
                                                                          interests); equity-like loans; and CDFI support
BEA Program awards are based on the increase in the                       (loans, deposits or technical assistance) to certified
amount of Qualified Activities from a Baseline Period to                  CDFIs (referred to as CDFI Partners).
a later Assessment Period (the corresponding time in the
following year). Qualified Activities consist of financial             2. Distressed Community Financing Activities:
assistance provided to certified CDFIs, loans made by                     Loans or investments for affordable home
financial institutions in distressed communities (for                     mortgages, affordable housing development,
example, affordable housing loans, small business loans,                  education, home improvement, small businesses,
real estate development loans), and financial services                    and commercial real estate development in
provided in distressed communities (such as access to                     economically distressed communities.
automated teller machines and opening of savings
accounts).
                                                                       3. Service Activities: Deposits, financial services
                                                                          (such as check-cashing, money orders, or certified
Promoting CDFI Investments through                                        checks), electronic transfer accounts (ETAs),
the BEA Program                                                           individual development accounts (IDAs), or
                                                                          community services provided to low- to moderate-
The BEA Program has a dual purpose. The first                             income individuals or the institutions serving
priority is to increase banks' financial support of                       them.
CDFIs in order to build CDFI self-sufficiency and
capacity (referred to as CDFI Related Activities). The                 FY 2009 BEA Program Awards
second priority is to build the capacity of Federal
Deposit Insurance Corporation (FDIC) insured                           For FY 2009, the CDFI Fund received 58 eligible
depository institutions to expand their community                      applications requesting a total of more than $57
development lending and investments in severely                        million, compared to 60 applications requesting a total
underserved areas (referred to as the Distressed                       of approximately $49 million in FY 2008. The CDFI
Community Financing Activities and Service                             Fund selected 55 FDIC-insured institutions to receive
Activities).                                                           approximately $22 million in awards. The FY 2009
                                                                       applicants are headquartered in 24 states and the
The CDFI Fund awards applicants in the CDFI                            District of Columbia, compared to the 19 states and
Related priority before making awards to applicants in                 the District of Columbia represented in the prior year.
the Financing Activities priority and Service Activities
priority.                                                              FY 2009 applicants provided $310.6 million in
                                                                       qualified loans or investments in distressed
The prospect of a BEA Program award encourages                         communities, $173.7 million in qualified loans,
banks to achieve this first priority by providing low-                 deposits and technical assistance to CDFIs, and $53.2
cost capital and operating support to CDFIs, which has
                                                                16

                                       CDFI Fund FY 2008 Performance and Accountability Report
million in qualified financial services in distressed                        Communities, helping create Native CDFIs as well as
communities.                                                                 to strengthen the operational capacity of existing ones.

FY 2009 Community Impact                                                     The Native Initiatives are based on six objectives:

FY 2009 BEA Program awardees increased their                                 1. Expanding training opportunities in community
qualified community development activities by $292.3                            development finance for Native Communities;
million over the prior year:                                                 2. Providing technical assistance to overcome
                                                                                barriers to creating and sustaining Native CDFIs;
•    $214.2 million increase in loans and investments                        3. Making technical and financial assistance awards
     in distressed communities;                                                 to meet the needs of existing or proposed Native
•    $74.6 million increase in loans, deposits, and                             CDFIs;
     technical assistance to CDFIs; and                                      4. Encouraging mainstream financial institutions to
                                                                                increase their financial products and services in
•    $3.5 million increase in the provision of financial
                                                                                Native Communities;
     services in distressed communities.
                                                                             5. Supporting financial education activities in Native
                                                                                Communities; and
The trend of investments in distressed communities and
investments in CDFIs by BEA awardees is shown in the
                                                                             6. Facilitating networking and in-depth training
Distribution of BEA Program Awards by Category                                  forums in community development finance.
chart.
                                                                             These objectives are achieved through two principle
                                                                             strategies. The first strategy is to provide funding
            Distribution of BEA Program Awards By                            through the Native American CDFI Assistance
                 Category (amounts in millions)
                                                                             (NACA) Program, which increases the number and
                                                                             capacity of existing or new Native CDFIs. The second
    $25.0                                                                    strategy is to provide training to help create new
                                                 $2.7                        Native CDFIs or strengthen the operational capacity of
    $20.0
                                       $5.6                                  existing ones.
    $15.0
                                                                             NACA Program FY 2009
    $10.0                     $1.5               $19.4
                      $4.2
              $5.9                    $14.4
     $5.0                     $9.7                                           The NACA Program helps emerging and existing
                      $7.6
              $3.9                                                           Native CDFIs build their capacity to address the
     $0.0                                                                    community development and capital needs of Native
             2005    2006    2007     2008      2009                         Communities. The program provides FA awards and
                                                                             TA grants to Native CDFIs.
            CDFI Related Activities
            Distressed Community Financing Services
                                                                             Financial Assistance Awards

Native Initiatives                                                           In FY 2009, the CDFI Fund conducted two funding
                                                                             rounds for the NACA Program – one using Recovery
In November 2001, the CDFI Fund published the                                Act funds (the initial funding round) and one using
Report on the Native American Lending Study, which                           annual appropriated funds (the supplemental funding
forms the basis for creating the Native Initiatives. The                     round).
study evaluated access to credit, capital and financial
services in Native American, Alaskan Native and                              Applicants that did not receive initial funding round
Native Hawaiian communities and identified barriers                          awards were considered for supplemental funding round
to provide such financing. To address these barriers,                        awards, along with the applicants that specifically
the Native Initiatives increase opportunities to access                      submitted initial funding round applications. (Details on
credit, capital and financial services by creating or                        the Recovery Act awards can be found in a separate
expanding Native CDFIs primarily serving Native                              section of the PAR.) Supplemental funding round
                                                                      17

                                             CDFI Fund FY 2008 Performance and Accountability Report
awards were announced on September 28, 2009.                         Counseling (FEC) Program. Through the FEC Pilot
                                                                     Program, the CDFI Fund may provide grants to
During FY 2009, the CDFI Fund received and                           eligible organizations (including CDFIs) to enable
considered 17 applications for supplemental funding                  such organizations to provide a range of Financial
round awards. NACA FA Applicants requested a total                   Education and Counseling Services to Prospective
of $9.8 million and the CDFI Fund made 10 FA/TA                      Homebuyers, with the goals of: (i) increasing the
awards to NACA applicants for a total of $4.5 million.               financial knowledge and decision-making capabilities
                                                                     of Prospective Homebuyers; (ii) assisting Prospective
Technical Assistance Grants                                          Homebuyers to develop monthly budgets, build
                                                                     personal savings, finance or plan major purchases,
TA grants help awardees build their capacity to                      reduce debt, improve financial stability, and set and
provide financial services and products. Awardees can                reach financial goals; (iii) helping Prospective
use TA grants to: 1) acquire products or services such               Homebuyers to improve credit scores by
as technology or staff and board training; 2) engage                 understanding the relationship between credit histories
consulting services to undertake activities like a                   and credit scores; and (iv) educating Prospective
market analysis or development of lending policies                   Homebuyers about the options available to build
and procedures; 3) pay for staff time to conduct                     savings for short- and long-term goals.
capacity-building activities like website development;
and 4) support on-going operational activities such as               The purpose of the FEC Pilot Program is to identify
staff salary, rent and utilities.                                    successful methods resulting in positive behavioral
                                                                     change for financial empowerment, and to establish
TA-only applications were due to the CDFI Fund on                    program models for organizations to carry out
December 17, 2008. During FY 2009, the CDFI Fund                     effective Financial Education and Counseling Services
received 32 applications for TA-only, requesting a                   to prospective homebuyers. The CDFI Fund may
total of approximately $4.6 million. The CDFI Fund                   make up to five awards of $400,000 each. The CDFI
awarded about $3.3 million to 27 TA-only awardees.                   Fund released the Notice of Funding Availability
                                                                     (NOFA) for this program on October 13, 2009, and
                                                                     intends to make award determinations in the second
Training Initiatives                                                 quarter of FY 2010.

Under the Native Initiatives, the CDFI Fund engages                  Recovery Act 2009
contractors to provide training and technical assistance
to existing and emerging Native CDFIs. The
Expanding Native Opportunities component involves                    NACA Financial Assistance
three types of training: 1) Native Communities
Financing Initiatives; 2); Native Financial Skills and               In February 2009, the CDFI Fund received $8 million in
Enterprise Initiatives; and 3) Native Individual                     Appropriations under the Recovery Act for the NACA
Development Account Initiative. The Native                           Program. In order to disburse the funding as quickly and
Communities Financing Initiatives are accompanied                    efficiently as possible into the national economy,
with technical assistance, allowing up to six days of                Recovery Act funding was used for awards made
on-site assistance to participants.                                  through the initial funding round.
The CDFI Fund has contracted with two organizations                  The Recovery Act waived the matching funds
to provide a series of workshops and technical                       requirement as well as the $5 million limit an awardee
assistance to participants in the three training                     can receive in a 3-year period.
initiatives.
                                                                     During FY 2009, the NACA Program considered 10
Financial Education and Counseling                                   applicants requesting $8 million for Recovery Act
Program                                                              funding. Awards were made to all the awardees for $8
                                                                     million with awards capped at $730,000. Awards were
In FY 2009, the CDFI Fund was appropriated $2                        made for FA as well as TA. Awards were announced on
million to administer a Financial Education and                      July 1st and fully disbursed within 60 days.

                                                              18

                                     CDFI Fund FY 2008 Performance and Accountability Report
Status of Financial
Management
(Unaudited)




                                   19

          CDFI Fund FY 2009 Performance and Accountability Report
                         STATUS OF FINANCIAL MANAGEMENT
This section includes the assurance statement required                     •    Financial management systems are in
under the Federal Managers’ Financial Integrity Act, a                          compliance with federal financial systems
summary of the results of the FY 2009 financial                                 standards, i.e., FMFIA Section 4 and FFMIA.
statement audit, a summary of the financial
management initiatives of the CDFI Fund during FY                     For all CDFI Fund responsibilities, I provide herein
2009, and a discussion of the CDFI Fund’s financial                   reasonable assurance that the above listed management
position and results of operations during the past fiscal             control objectives, taken as a whole, were achieved by
year.                                                                 our office during FY 2009.           Specifically, this
                                                                      assurance is provided with reference to Sections 2 and
Management Assurances                                                 4 of FMFIA.          I further assure our financial
                                                                      management systems are in substantial compliance
FY 2009 Statement of Assurance of                                     with requirements imposed by FFMIA.
Achievement of Management Control Objectives
                                                                      The analytical basis for this assurance statement is the
The Community Development Financial Institutions                      overall results from the testing and assessment of
(CDFI) Fund is responsible for establishing and                       internal controls over financial reporting which
maintaining effective internal control over financial                 resulted from completion of the “Department of the
reporting and has made a conscientious effort in FY                   Treasury, FY 2009 Guidance and Implementation
2009 to meet the internal control requirements of the                 Plan, Office of Management and Budget (OMB)
Federal Manager’s Financial Integrity Act (FMFIA),                    Circular A-123, Management’s Responsibility for
the Federal Financial Management Improvement Act                      Internal Control, Appendix A, Internal Control Over
(FFMIA), Office of Management and Budget (OMB)                        Financial Reporting” (March 5, 2009).
Circular A-123, and the Reports Consolidation Act of
2000. The units under my purview are operating in                     In addition, my assurance is based on our assessment
accordance with the procedures and standards                          of management controls, including existing policies
prescribed by Comptroller General and OMB                             and procedures, knowledge gained through day-to-day
guidelines.                                                           management activities, the review of various
                                                                      management information reports attendant to those
The systems of management control for the CDFI                        activities, reports and reviews by internal and external
Fund under my purview are designed to ensure:                         auditors, our annual review performed pursuant to the
                                                                      Improper Payments Information Act, and our own
    •   Programs achieve their intended results;                      understanding of the requirements imposed by both
    •   Resources used are consistent with our overall                FMFIA and FFMIA.
        mission;
                                                                      The Bureau of Public Debt’s (BPD) Administrative
    •   Programs and resources are protected from
                                                                      Resource Center provides full financial services to the
        waste, fraud, and mismanagement;
                                                                      CDFI Fund. As a result of its involvement in the
    •   Laws and regulations are followed;
                                                                      financial reporting process, ARC provides reasonable
    •   Controls are sufficient to minimize any                       assurance based on the Independent Service Auditor’s
        improper or erroneous payments;                               Report completed by KPMG dated August 27, 2009.
    •   Performance information is reliable;                          In addition, the Treasury Office of Financial
    •   Systems security is in substantial compliance                 Management (OFM) has reviewed and concurred with
        with all relevant requirements;                               BPD’s assurance level.
    •   Continuity of operations planning in critical
        areas is sufficient to reduce risk to reasonable
        levels; and
                                                               20

                                      CDFI Fund FY 2009 Performance and Accountability Report
The following are findings made by KPMG in the                       Public Debt (ARC-BPD) in a timely manner. The
course of their audit of the CDFI Fund’s FY 2009                     Fund also does not have a process to regularly assess
financial statements, and the CDFI Fund’s                            how changes in operations or circumstances may
management responses:                                                require modification to or development of specific
                                                                     articulated policies and procedures.
1. KPMG found that the CDFI Fund does not have the
necessary processes to track and reconcile actual to                 The CDFI Fund concurred with the recommendations.
expected loan principal and interest activities,                     As of September 30, 2009 the CDFI Fund has adjusted
including the effects of renegotiation and re-                       the accounting treatment for investments. Investments
scheduling of such payments. The CDFI Fund                           are currently appropriately recognized, valued and
concluded that most of the CDFI Program loan                         have been evaluated for potential other-than-temporary
awardees are performing as required and are serving                  impairments based on investment type. The CDFI
their target communities by expanding the availability               Fund will continue the appropriate accounting
of credit and investment capital in distressed urban and             treatment going forward and will develop formal
rural communities. However, management agrees that                   policies and procedures by January 31, 2010 to ensure
the recommendations suggested by KPMG will                           the CDFI Fund, BPD-ARC, and OFM are aware of the
improve the CDFI Fund’s ability to estimate the                      appropriate investment methodology and practices.
allowance for loan loss, as well as determine the
impact of loan restructuring.                                        Starting in FY 2010, the CDFI Fund will notify BPD-
                                                                     ARC of any changes to the investments status
As of June 2009, the CDFI Fund has implemented an                    (amendment, redemption) so that BPD-ARC can
analysis process that includes a loan-by-loan review                 update the investment schedule it maintains. The
using key financial ratios from the awardees’ most                   requirement for notification to BPD-ARC of approved
recent audited financial statements. This analysis will              changes to the investments and/or investees will be
result in a specific dollar estimate of allowance                    included in the award amendment policies and
necessary for FY 2009 rather than the 25% blanket                    procedures under development. In addition, the CDFI
allowance used in prior years, thus complying with                   Fund will review the investment schedule provided
Financial Accounting Standard Board (FASB)                           and maintain by BPD–ARC on a monthly basis.
Accounting Standards Codification (ASC) 310-10-35.
This analysis will continue into future years.                       3. KPMG found that significant events or transactions
                                                                     could occur and not be properly presented or disclosed
The CDFI Fund will work with OFM and BPD to                          in the annual financial statements.
develop a loan subledger system by March 31, 2010.
The CDFI Fund will coordinate with OFM and BPD to                    The CDFI Fund concurs with the finding. The Fund
implement procedures to use this subledger system to                 will review its current policies and procedures and
evaluate, reconcile payments, identify past-                         work with the Office of Financial Management (OFM)
due/delinquent loans, and categorize them into risk                  and the Bureau of Public Debt (BPD) to establish
categories. The CDFI Fund projects that we will                      additional policy and procedures, where necessary, to
record most of our loan portfolio in the subledger                   ensure all events and transactions that occur
system by June 30, 2010 and all by September 30,                     throughout the year are appropriately presented or
2010.                                                                disclosed in the financial statements. The Fund also
                                                                     will ensure that training is provided to the appropriate
These procedures will result in additional data to be                personnel to facilitate better understanding and
used in conjunction with the loan analysis described                 application of generally accepted accounting principles
above, thus further improving the process the CDFI                   in accordance with FASB.
Fund implemented in June 2009
                                                                     Donna J. Gambrell
2. KPMG found that the CDFI Fund did not have                        Director
policies and procedures in place to ensure investments
that were written off were communicated to the
Administrative Resource Center of the Bureau of the

                                                              21

                                     CDFI Fund FY 2009 Performance and Accountability Report
Description of the       CDFI     Fund’s      Financial             financial position, portfolio, community impacts,
Management System                                                   development services, other products and services, and
                                                                    compliance measures. The CDE CIIS data collected
The CDFI Fund contracts for accounting services                     includes the organization’s profile, QEI distribution,
under a franchise agreement with the Bureau of the                  portfolio, loan purchases, and financial counseling and
Public Debt’s Administrative Resource Center (ARC)                  other services.
in Parkersburg, West Virginia. While the ARC
maintains the accounting system relating to the CDFI                Cumulatively through FY 2009, CIIS was used by 517
Fund’s transactions, the CDFI Fund is responsible for               CDFIs and 193 CDEs to report institutional level data
generation of all source documents and the accuracy of              for 2008 activity (with 31 organizations reporting in
all accounting information.                                         both categories). Through FY 2009, a cumulative total
                                                                    of 355 organizations submitted the transactional level
The CDFI Fund’s financial management system                         details on over 152,000 distinct portfolios of loans and
includes the disbursement transactions maintained by                equity investments for 2008 activity. This is a 79
ARC in the accounting system, as well as records                    percent increase in the total number of transactions
maintained and procedures performed by the CDFI                     reported in the previous year, where there were close
Fund’s financial management staff in the Office of                  to 85,000 transactions cumulative through FY 2008.
Financial Management. The Fund’s resource manager
and the Treasury Office of Financial Management                     In the past year, the CDFI Fund has used the CIIS data
(OFM) are responsible for the administrative control                to analyze the characteristics of CDFIs (including their
of its funds, budget formulation and execution, and                 loan and investment portfolios, capital under
review and analysis of financial information.                       management, operating revenues, and overall financial
                                                                    strength) and assess the impact CDFIs are having in
                                                                    the communities they serve. The second round of this
Results of FY 2009 Financial Statement                              analysis was published in December 2007 in “Three
Audit                                                               year trend analysis of CIIS Institutional level report
                                                                    data: FY 2003-2005.” FY 2009 marks the third time
The FY 2009 audit of the CDFI Fund’s financial                      that the CDFI Fund made the CIIS data available to
statements resulted in an unqualified opinion with the              the public (within the parameters of all applicable
following     three    significant    deficiencies: 1.              Federal information protection, privacy and
Improvements are needed in the accounting process                   confidentiality laws). The CDFI Fund provided
for estimating loan loss reserves; 2. Improvements are              public-use CIIS data and financial support to twelve
needed in the accounting for investments; and 3.                    independent research teams as part of its CDFI
Improvements are needed in the preparation and                      Research Initiative.
review of the financial statements. The CDFI Fund
Management concurred with these deficiencies and                    Much of the performance information in The
responses are included in Exhibit II of the Auditor’s               Community Development Financial Institutions
report. No material weaknesses were identified.                     Program section of the Discussion and Analysis
                                                                    section was provided through an analysis of CIIS data.
FY 2009 Financial Management Initiatives
                                                                    Migration to Grants.gov              for    Paperless
In FY 2009, the financial management focus was on                   Processing of Applications
continuing to implement and enhance prior year
information technology initiatives.                                 The Federal Financial Assistance Management
                                                                    Improvement Act (P.L. 106-107), and the President’s
Community Investment Impact System (CIIS)                           Management Agenda require all federal grant making
                                                                    agencies to migrate 100 percent of their electronic
CIIS is a web-based system designed to collect an                   program applications to the Grants.gov system
Institution Level Report (ILR) and Transaction Level                administered by the Department of Health and Human
Report (TLR) from CDFIs and CDEs. The CDFI CIIS                     Services. During FY 2009, the CDFI Fund posted all
data collected includes the organization’s profile,                 of its applications to Grants.gov, meeting this goal.
                                                             22

                                    CDFI Fund FY 2009 Performance and Accountability Report
The CDFI Fund realized cost savings associated with                   Federal Funding Accountability and Transparency
the intake and processing of all grant applications.                  Act
During FY 2009, all applications were posted to
Grants.gov using Adobe technology.                                    The Federal Funding Accountability and Transparency
                                                                      Act of 2006 requires that all grant making agencies
Migration to a Grants Management Line of                              fully disclose all organizations that receive federal
Business for Internal Application Processing                          funds. This information will be reported to the public
                                                                      on a website maintained by the Office of Management
The Federal Financial Assistance Management                           and Budget. The CDFI Fund submitted FY 2009 data
Improvement Act and the President’s Management                        directly to USASpend.gov.
Agenda require that all federal grant making agencies
migrate their electronic grant processing systems to                  Management Responsibilities
one of three federally selected Centers of Excellence
(CoE). This initiative is known as the “Grants                        CDFI Fund management is responsible for the fair
Management Line of Business” (GMLoB). The                             presentation of information contained in the principal
process requires each organization to execute a                       financial statements in conformity with accounting
Memorandum of Understanding (MoU) with a CoE                          principles generally accepted in the United States of
that best matches the high-level business requirements                America. Management is also responsible for the fair
of the organization, and to perform a formal Fit-Gap                  presentation of the CDFI Fund’s performance
analysis to determine the feasibility of migrating the                measures in accordance with the Office of
organization’s grants management systems to that of                   Management and Budget requirements. The quality of
the CoE.                                                              the CDFI Fund’s internal control structure rests with
                                                                      management, as does the responsibility for
In response with the above directives, the CDFI Fund                  identification of and compliance with applicable laws
partnered with other grant programs within the U.S.                   and regulations.
Department of the Treasury (i.e., three IRS programs:
Low Income Taxpayer Clinic, Tax Counseling for
Elderly, and Volunteer Income Tax Assistance
Program) to observe cost savings and avoid
duplication of efforts in addressing the GMLoB
requirements. The CDFI Fund and the IRS executed a
joint MoU with the Department of Health and Human
Services (HHS) Administration for Children and
Families (ACF) in the second quarter FY 2009.
HHS/ACF performed a detailed fit-gap analysis of
both CDFI Fund and IRS grant programs and found
good fit with the IRS programs; however, the fit-gap
study identified “Significant Gaps” between the CoE’s
current capabilities and a number of CDFI Fund’s key
business processes. In particular, the HHS/ACF could
not meet any of the “Certification” and “Compliance”
requirements that CDFI Fund is mandated to perform
(12 U.S.C. 4701 et seq.). Therefore, the CDFI Fund is
currently pursuing its option to obtain a waiver from
OMB and to identify Commercial Off the Shelf
(COTS) products that can meet its grants management
needs. When this initiative is completed, it is
anticipated that there will be a substantial cost savings
and improved efficiency to the CDFI Fund pertaining
to the processing of grant applications.


                                                               23

                                      CDFI Fund FY 2009 Performance and Accountability Report
Limitations of the Financial Statements                                         Assets
                                                                                Assets decreased by $5.9 million during the year,
The financial statements report the financial position                          consisting primarily of a decrease in the Fund Balance
and results of operations of the CDFI Fund for the                              with Treasury which includes appropriated and
fiscal years ending in September 30, 2009 and 2008,                             borrowed funds available to pay liabilities and to
pursuant to the requirements of 31 U.S.C. 3515(b).                              finance authorized award and purchase commitments.
While the statements have been prepared from the
books and records of the CDFI Fund in conformity                                Fund Balance with Treasury
with accounting principles generally accepted in the                            The Fund Balance with Treasury reflected a specific
United States of America, the statements are in                                 change from the prior year, due to a decrease in Fund
addition to the financial reports used to monitor and                           balance of $7.5 million of appropriations for FY 2008
control budgetary resources which are prepared from                             to FY 2009. As a result, the CDFI Fund has decreased
the same books and records. The statements should be                            the amount of awards issued during the current year
read with the realization that they are for a component                         from the CDFI Fund; however, this amount was
of the U.S. Government, a sovereign entity, and that                            partially offset by the American Recovery and
the payment of all liabilities other than for contracts                         Reinvestment Act of 2009.
can be abrogated by the sovereign entity.
                                                                                Loans Receivable
                                                                                Loans receivable are increased when loan awards
Analysis of Financial Position and                                              (under the CDFI and NACA programs) are disbursed
Results of Operations                                                           by the CDFI Fund and decreased for loan repayments
                                                                                and loan write-downs. During FY 2009, net loans
                   Summarized Financial Data                                    increased by $5.5 million, resulting from repayments
                           (amounts in millions)                                of $3.6 million and offset by additional loans
                                                            Increase /          disbursed during the year of $3.5 million. The
                                           FY 2009 FY 2008 (Decrease)           allowance for loan losses decreased by $5.9 million.
Assets                                      $166.1 $172.0        ($5.9)         The effect of these transactions resulted in a net
Liabilities                                  $49.7  $63.4      ($13.7)          increase in loans receivable of $5.5 million.
Net Position                                $116.4 $108.5         $7.9
Revenue and Financing Sources               $197.9  $72.2      $125.7           Investments
Expenses                                    $200.4  $72.7      $127.7           The CDFI Fund currently holds five types of
Net Loss                                     ($2.5)  ($0.5)      ($2.0)         investments with net balances as follows:
                                                                                    • Non-voting equity securities - $23 million
                                                                                    • Convertible subordinated debt - $0.28 million
                  Allocation of Fund Assets
                                                                                    • Limited partnerships - $1.6 million
                     September 30, 2009                                             • Secondary Capital - $4 million
                      ( amount s in millions)                                       • Certificates of Deposit - $0.25 million

                $29.1               $2.7                                        The primary source of financial data used for the
                                                                                majority of assessments is the most recent audited
                                                                                financial statements of the investees.      These
       $51.4                                                     $82.9          assessments determine whether any other items, or
                                                                                temporary impairments should be recognized.

                                                                                Liabilities
    Fun d Bala nce With Trea sury     Lo ans Re ce ivable, Net                  The decrease in liabilities during the year of $13.7
    Investment in Awarde es, Net      Othe r
                                                                                million consisted of a decrease in awards payable of
                                                                                $12.9 million and an increase in other liabilities by
                                                                                $0.7 million, offset by a decrease in debt of $0.8
                                                                                million.

                                                                          24

                                                CDFI Fund FY 2009 Performance and Accountability Report
Awards Payable                                                       Revenue and Financing Sources, Expenses, and
Awards payable consists primarily of undisbursed                     Net Loss
BEA Program awards (recorded as a liability at the
time of award).                                                      Revenue and Financing Sources
Awards payable has decreased significantly over the                                    Revenue and Fina nc ing S ource s
                                                                                            (amounts in millions )
past several years, going from $64.7 million at the end
of FY 2001, to $7.9 million at the end of the FY 2009.                                                                     $1 97.9
                                                                              $ 200
This decrease occurred for two reasons: 1) the CDFI
Fund’s annual budget appropriation for the BEA                                $ 150
Program peaked in FY 2001 with a $46 million                                  $ 100            $71.9 $59.8   $59.0 $72.2
                                                                                      $51.3
appropriation, decreasing to $21.7 million in FY 2009,
                                                                                $50
so there was a smaller amount of BEA Program
awards to make each year, and 2) the CDFI Fund has                               $0
                                                                                      200 4 200 5 2006 2007 2008           2009
been able to disburse a significant amount of BEA
                                                                                                    Fisc al Ye ar
awards over each of the past several years, since there
is no matching funds requirement for BEA awardees.                   The primary source of revenue and financing sources
                                                                     for the CDFI Fund is the annual appropriation used to
Debt                                                                 fund expenses (“appropriated capital used” as reflected
The decrease in debt of $0.8 million relates to                      in the statement of operations). Pursuant to Federal
repayments of amounts borrowed from Treasury to                      grant accounting requirements, the amount of
fund loans to awardees.         Principal repayments                 appropriated funds recognized as revenue is, with
collected from awardee loans during the year are used                certain adjustments, equal to the amount of operating
to repay the Treasury borrowings, and therefore                      expenses for the year. Operating expenses for the year
amounts collected and repaid to Treasury each year                   excluding those paid for by others were $195.3
will vary from year to year, as they are a function of               million. An explanation for the $125.8 million
awardee loan terms.                                                  increase in operating expenses from FY 2008 to FY
                                                                     2009 is associated with the American Recovery and
Net Position                                                         Reinvestment Act of 2009 and is discussed in the
Net position increased during the year by $7.9 million.              Expenses section below.
Net position will change during the year as a result of
the following: 1) the difference between                             Expenses
appropriations received (net of appropriations
cancelled, rescinded and adjusted for credit subsidy re-             The change in the CDFI Fund’s operating expenses
estimates) and appropriations used; 2) any adjustment                during FY 2009 and FY 2008 consisted of the
of the CDFI Fund’s subsidy reestimate, and 3) the                    following:
excess (or shortage) of revenue and financing sources                              Comparison of Operating Expenses
over (under) expenses.           During FY 2009,                                   Fiscal Years 2009 and 2008
appropriations received (net of amounts cancelled and                                   (amounts in millions)
rescinded) were $207 million, and appropriated capital
                                                                                                       FY 2009      FY 2008 Difference
used was $195.7 million. This difference of $11.3
million increases net position.                                        Award Expenses                  $183.8       $54.5            $129.3
                                                                       Administrative Expenses          $17.4       $15.2            $2.2
                                                                       Bad Debt Expense                 ($5.9)       ($0.4)          ($5.5)
                                                                       Total Operating Expenses        $195.3       $69.3            $126.0



                                                                     Award Expenses
                                                                     The award expenses during the year increased $129.3
                                                                     million due to an increase in the annual appropriations
                                                              25

                                     CDFI Fund FY 2009 Performance and Accountability Report
for FY 2008 to FY 2009 and due to an additional $98                        Accordingly, the shortage of revenue and other
million for the American Recovery and Reinvestment                         financing sources over expenses (the CDFI Fund’s
Act of 2009.                                                               “net loss”) will consist of the amount by which
                                                                           expenses not covered by budgetary resources exceeds
                       Award Expenses                                      revenue and financial sources other than appropriated
                      (amounts in millions)
                                                                           capital used.

    $200.0                                                                 For FY 2009, expenses not covered by budgetary
    $180.0                                             $21.7               resources totaled $2.1 million, consisting of interest
    $160.0
                                                                           expense on Treasury borrowings.
    $140.0
    $120.0
                                                                           Revenue and financial sources other than appropriated
    $100.0
     $80.0                                             $162.1              capital used and imputed financing sources totaled
     $60.0
                                                                           $1.5 million consisting of interest and dividend
                       $8.4
                                        $9.6   $18.6
      $40.0                    $10.3
              $16.7    $48.5
      $20.0                    $33.3   $34.2   $35.9
              $20.3
       $0.0
              2004    2005     2006 2007       2008    2009
                                Fisc al Year

                CDFI Program        BEA Program



Administrative Expenses

FY 2009 administrative expenses were $2.0 million
more than the prior year. The main reason for this
increase was the increase in personnel costs during FY
2009.

Bad Debt Expense
Bad debt expense is a function of the amount of
loans receivable at year-end. As of June 2009, the
CDFI Fund implemented an analysis process that
includes a loan-by-loan review using key financial
ratios from the awardees’ most recent audited financial
statements. This analysis results in a specific dollar
estimate of allowance necessary for FY 2009 rather
than the 25% blanket allowance used in prior years,
thus complying with FASB ASC 310-10-35. Loans
receivable increased during FY 2009 by $5.5
million, resulting in a decrease to the allowance
for bad debts of $5.9 million (the amount of the
allowance for bad debts is a function of the loan
receivable balance).

Net Loss

As stated above, the amount of appropriated capital
used (the largest component of the CDFI Fund’s
revenue) is, with certain adjustments, equal to the
amount of operating expenses for the year.
                                                                    26

                                           CDFI Fund FY 2009 Performance and Accountability Report
D




Independent
Auditors’
Reports




                                 27

        CDFI Fund FY 2009 Performance and Accountability Report
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                           Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the accompanying statements of financial position of the U.S. Department of the
Treasury’s Community Development Financial Institutions Fund (the Fund) as of September 30, 2009 and
2008, and the related statements of operations and changes in net position, and cash flows (hereinafter
referred to as “Financial Statements”) for the year ended September 30, 2009. These Financial Statements
are the responsibility of the Fund’s management. Our responsibility is to express an opinion on these
Financial Statements based on our audits. We were not engaged to audit the accompanying statements of
operations and changes in net position, and cash flows for the year ended September 30, 2008 and,
therefore, we do not express an opinion on those financial statements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the Financial Statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the Financial Statements referred to above present fairly, in all material respects, the
financial position of the Community Development Financial Institutions Fund as of September 30, 2009
and 2008, and the results of its operations and cash flows for the year ended September 30, 2009, in
conformity with U.S. generally accepted accounting principles.

As discussed in Note 3 to the Financial Statements, the Fund adopted the provisions of the Financial
Accounting Standards Board’s Accounting Standards Codification Topic 820, Fair Value Measurements
and Disclosures, effective October 1, 2008.

The information in the Community Development Financial Institutions Fund Overview, Program
Discussion and Analysis, and Status of Financial Management sections is presented for purposes of
additional analysis and is not required as part of the Financial Statements. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of measurement
and presentation of this information.


                                                                         28
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
However, we did not audit this information and, accordingly, we express no opinion on it. Certain
information presented in the Community Development Financial Institutions Fund Overview, Program
Discussion and Analysis, and Status of Financial Management sections is based on the fiscal year 2008
statements of operations and changes in net position, and cash flows that we were not engaged to audit.

The information in the appendices is presented for purposes of additional analysis and is not required as
part of the Financial Statements. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 10,
2009, on our consideration of the Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, grant agreements and other matters. The
purpose of those reports is to describe the scope of our testing of internal control over financial reporting
and compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




November 10, 2009




                                                     29
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the statements of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (the Fund) as of September 30, 2009 and 2008, and the related
statements of operations and changes in net position, and cash flows (hereinafter referred to as “Financial
Statements”) for the year ended September 30, 2009, and have issued our report thereon dated
November 10, 2009. We were not engaged to audit the statements of operations and changes in net
position, and cash flows for the year ended September 30, 2008, and, therefore, we did not express an
opinion on those financial statements. As discussed in Note 3 to the Financial Statements, the Fund
adopted the provisions of the Financial Accounting Standards Board’s Accounting Standards Codification
Topic 820, Fair Value Measurements and Disclosures, effective October 1, 2008.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the Financial Statements are free of material misstatement.

The management of the Fund is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2009 audit, we considered the Fund’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of the Fund’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the Financial Statements. To achieve this purpose, we did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our audit was not to express an opinion on the effectiveness of the Fund’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of the Fund’s internal
control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important




                                                                         30
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.

In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. However, we identified certain
deficiencies in internal control over financial reporting that we consider to be significant deficiencies, that
are described in Exhibit I. Exhibit III presents the status of prior year significant deficiencies.

Management’s responses to the findings identified in our audit are presented in Exhibit II. We did not audit
the Fund’s response and, accordingly, we express no opinion on it.

We noted one additional matter that we have reported to management of the Fund in a separate letter dated
November 10, 2009.

This report is intended solely for the information and use of the Fund’s management, the Department of the
Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 10, 2009




                                                      31
                                                                                                   Exhibit I

                          Community Development Financial Institution Fund

                              Significant Deficiencies and Recommendations


Improvements are needed in the accounting process for estimating loan loss reserves

The Community Development Financial Institutions Fund (the Fund) did not have the necessary processes
to track and reconcile actual to expected loan principal and interest activities, including the effects of
renegotiations and rescheduling of such payments. Further, the policies and procedures to recognize the
allowance for loan losses had not been revisited and revised to consider changing circumstances. The Fund
historically used a default allowance rate of 25%, which was originally negotiated by the Office of
Management and Budget with the Fund to be used if adequate historical information was not available.
During the majority of fiscal year 2009, the Fund continued to use this rate even though some payment
history is now available.

In addition, management had not evaluated the collection history of the Fund’s loans to determine the
potential impact on the allowance for loan losses nor had it performed any other analyses to determine if
any loans were impaired.

Financial Accounting Standards Board (FASB) Accounting Standards Codification (ASC) Section 310-10-
35 states, “Subtopic 450-20 requires recognition of a loss when both of the following conditions are met: a)
Information available before the financial statements are issued or are available to be issued (as discussed
in Section 855-10-25) indicates that it is probable that an asset has been impaired at the date of the
financial statements, and b) The amount of the loss can be reasonably estimated. Losses from uncollectible
receivables shall be accrued when both of the preceding conditions are met. Those conditions may be
considered in relation to individual receivables or in relation to groups of similar types of receivables. If
the conditions are met, accrual shall be made even though the particular receivables that are uncollectible
may not be identifiable.”

FASB ASC Section 310-10-35 also states, “When a loan is impaired…, a creditor shall measure
impairment based on the present value of expected future cash flows discounted at the loan's effective
interest rate, except that as a practical expedient, a creditor may measure impairment based on a loan's
observable market price, or the fair value of the collateral if the loan is a collateral-dependent loan.” It
further states, “If the present value of expected future cash flows (or, alternatively, the observable market
price of the loan or the fair value of the collateral) is less than the recorded investment in the loan
(including accrued interest, net deferred loan fees or costs, and unamortized premium or discount), a
creditor shall recognize an impairment by creating a valuation allowance with a corresponding charge to
bad-debt expense or by adjusting an existing valuation allowance for the impaired loan with a
corresponding charge or credit to bad-debt expense.”

Initial loan set up details were shared with the Bureau of Public Debt (BPD); however management does
not reconcile expected payments to the actual payments processed and reported by BPD. Further,
management had not considered the need to re-evaluate its accounting policies and procedures for
analyzing its allowance for loan losses. In addition, management had not fully implemented FASB ASC
Section 310-10-35, particularly the aspects of impairment recognition and computation.

As a result of the deficiencies noted above, management was not able to accurately determine the impact of
loan restructuring on the related loan balances and interest income. Nor was management able to
reasonably estimate its allowance for loan losses in accordance with U.S. generally accepted accounting


                                                     32
                                                                                                     Exhibit I

principles. We did note that management began revising its process for evaluating the allowance for loan
losses and was able to calculate a reasonable estimate for its September 30, 2009 financial statements.

Recommendations:

We recommend that management develop a loan sub-ledger system and implement revised policies and
procedures for estimating the allowance for loan losses. Specifically, management should perform the
following:

1. Develop a mechanism (procedures and systems) to capture the contractual terms and scheduled
   expected payments of Fund loans and to enable the evaluation and reconciliation of the actual
   payments received.

2. Use the system above to perform analyses of the loan portfolio and payment history to regularly
   identify past due and delinquent loans that need to be evaluated for collectibility by categorizing them
   into risk categories.

3. Perform periodic assessments of the collectibility of loans and make appropriate adjustments to the
   allowance as necessary, in accordance with U.S. generally accepted accounted principles.

Improvements are needed in the accounting for investments

During our fiscal year 2009 testing of investments, we noted certain deficiencies in the Fund’s accounting
for investments. Specifically, we noted the following:

•   The Fund had investment interests of 9% or more in four limited partnerships/limited liability
    companies that were incorrectly accounted for at impaired cost instead of the equity method as required
    by U.S. generally accepted accounting principles.

•   One debt security and six secondary capital investments had zero or below market interest rates;
    however, the Fund had not recorded appropriate discounts and recognized imputed interest for them.

•   The supporting documentation related to the valuation analysis for certain investments needs
    improvement. For instance, an analysis for one investment indicated that under one valuation method
    the carrying values exceeded the estimated fair value by approximately $250,000. Under another
    estimation method, the capitalized cash flow method, there was no indicated excess of carrying value
    over fair value. While management’s analyses did acknowledge certain qualitative and quantitative
    factors in support of the carried value (e.g. trends in recent operating performance), the analyses did not
    adequately extend the documentation to key aspects of their methodology (e.g. the selected
    capitalization rate in the capitalized cash flow evaluations performed for all of its investments was
    unsupported).

•   We noted several instances where the Fund wrote down an impaired investment to its “approximate fair
    value” instead of the fair value that was calculated using the aforementioned methods.

•   The Fund wrote off an investment in January 2009; however, this transaction was not recorded in the
    general ledger until August 2009.

The Fund was able to correct the deficiencies identified above by year-end.


                                                      33
                                                                                                    Exhibit I

FASB ASC Section 323-30-35 states, “Investors in unincorporated entities such as partnerships and other
unincorporated joint ventures generally shall account for their investments using the equity method of
accounting…if the investor has the ability to exercise significant influence over the investee.” It further
states, “An investment in a limited liability company that maintains a specific ownership account for each
investor—similar to a partnership capital account structure—shall be viewed as similar to an investment in
a limited partnership for purposes of determining whether a noncontrolling investment in a limited liability
company shall be accounted for using the cost method or the equity method.”

FASB ASC Section 323-30-S99 states, “That guidance requires the use of the equity method unless the
investor's interest ‘is so minor that the limited partner may have virtually no influence over partnership
operating and financial policies.’ The SEC staff understands that practice generally has viewed investments
of more than 3 to 5 percent to be more than minor.”

FASB ASC Section 335-30-25 states: “When notes are traded in an open market, the market rate of interest
and market value of the notes provide the evidence of the present value. These methods are preferable
means of establishing the present value of the note. If an established exchange price is not determinable
and if the note has no ready market, the problem of determining present value is more difficult. To estimate
the present value of a note under such circumstances, an applicable interest rate is approximated that may
differ from the stated or coupon rate. This process of approximation is called imputation, and the resulting
rate is called an imputed interest rate. Nonrecognition of an apparently small difference between the stated
rate of interest and the applicable current rate may have a material effect on the financial statements if the
face amount of the note is large and its term is relatively long.”

FASB ASC Section 320-35-31 states, “An investment is impaired if the fair value of the investment is less
than its cost.”

The U.S. Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government (GAO/AIMD-00-21.3.1) states: “Transactions should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions. This applies to the
entire process or life cycle of a transaction or event from the initiation and authorization through its final
classification in summary records. In addition, control activities help to ensure that all transactions are
completely and accurately recorded.” It also states, “Internal control and all transactions and other
significant events need to be clearly documented, and the documentation should be readily available for
examination.”

The Fund did not have a process to regularly assess and document how changes in operations or
circumstances may require modification to or development of specific articulated policies and procedures.
Such documentation would describe the accounting models (i.e. recognition, measurement and
impairment) for the variety of investments that the Fund currently holds and will hold in the future.

The Fund also did not have policies and procedures in place to ensure investments that were written off
were communicated to the Administrative Resource Center of the Bureau of the Public Debt (ARC-BPD)
in a timely manner. The ARC-BPD is responsible for entering transactions into the Fund’s general ledger.

Due to the deficiencies noted above, certain investments of the fund were not accounted for in compliance
with U.S. generally accepted accounting principles. In addition, without effective policies and procedures
in place, there is an increased risk of material misstatements to the financial statements and related
disclosures.



                                                     34
                                                                                                     Exhibit I

Recommendations:

We recommend that management of the Fund perform the following:

1. Develop and implement robust formal policies and procedures to ensure that all investment types are
   appropriately recognized, valued and evaluated for potential other-than-temporary impairment based
   on the type of investment; and that all transactions approved by management are properly
   communicated to the ARC-BPD in a timely manner.

2. Periodically reconcile the detailed investment schedule maintained by ARC-BDP to its investment
   program files to ensure that all approved transactions have been recorded. The detailed investment
   schedule should then be reconciled to the general ledger.

Improvements are needed in the preparation and review of the financial statements

During all of fiscal year 2009, the Fund did not have sufficiently thorough financial reporting procedures
(including planning and scoping consideration of new/different business transactions that may, or in fact
did, require new or different measurement and disclosure). U.S. generally accepted accounting principles
(GAAP) are dynamic to address today’s constantly evolving business environment. In the recent past, it
has become more critical for management to develop processes that will assist them in identifying and
implementing new accounting standards or identifying the appropriate GAAP for new business conditions.

FASB ASC Section 235-10-50-1 states, “Information about the accounting policies adopted by an entity is
essential for financial statement users. When financial statements that are issued or are available to be
issued to present fairly financial position, cash flows, and results of operations in accordance with
generally accepted accounting principles (GAAP), a description of all significant accounting policies of the
entity shall be included as an integral part of the financial statements. In circumstances where it may be
appropriate to issue one or more of the basic financial statements without the others, purporting to present
fairly the information given in accordance with GAAP, statements so presented also shall include
disclosure of the pertinent accounting policies.”

FASB Section ASC 235-10-50-3 states, “Disclosure of accounting policies shall identify and describe the
accounting principles followed by the entity and the methods of applying those principles that materially
affect the determination of financial position, cash flows, or results of operations.”

The Fund’s management conducted a review process with respect to financial statement disclosures
involving personnel within the financial reporting group and certain senior staff that was retrospective and
thus, by nature, reactive. While this type of review may be effective in the identification of certain types of
errors, those reviewers lacking a strong knowledge of GAAP and/or are without a ‘business understanding’
of the transactions may fail to detect omissions or misstatements. Further, as such a review was largely
retrospective, it compressed the time for thorough analysis into the short period that elapsed between the
fiscal year end and the financial statement delivery date.

Due to the deficiency in the financial reporting process, several items in the Fund’s initial year-end
financial statements were improperly presented and/or disclosed. In addition, certain required disclosures
related to policies and procedures of the Fund were not included in the notes to the financial statements.
Management was able to correct the errors/omissions in their final September 30, 2009 financial
statements.



                                                      35
                                                                                                 Exhibit I

Recommendations:

We recommend that management of the Fund perform the following:

1. Develop and implement comprehensive policies and procedures to ensure that all events and
   transactions that occur throughout the year are appropriately presented or disclosed in the financial
   statement.

2. Provide training to the appropriate personnel to facilitate better understanding and application of U.S.
   generally accepted accounting principles in accordance with FASB.




                                                    36
                                                                                               Exhibit II

                         Community Development Financial Institution Fund

               Management’s Response to Significant Deficiencies and Recommendations


Improvements are needed in the accounting process for estimating loan loss reserves

Management’s Response:

The CDFI Fund concurs with this finding. The CDFI Fund concluded that most of the loan awardees are
performing as required and are serving their communities by expanding the availability of credit,
investment capital in distressed urban and rural communities. However, management agrees the
recommendations suggested by KPMG will improve the CDFI Fund’s ability to estimate the allowance for
loan loss as well as determining the impact of loan restructuring.

In June 2009, the CDFI Fund began implementing an analysis process that included a loan-by-loan review
using key financial ratios from the awardees’ most recent audited financial statements. This analysis
resulted in a specific dollar estimate of allowance necessary for FY 2009 rather than the 25% blanket
allowance used in prior years, thus complying with FASB ASC 310-10-35. This analysis will continue into
future years.

The CDFI Fund will work with the Office of Financial Management (OFM) and the Bureau of Public Debt
(BPD) to develop a loan subledger system by March 31, 2010. The CDFI Fund will coordinate with OFM
and BPD to implement procedures to use this subledger system to evaluate, reconcile payments, identify
past-due/delinquent loans, and categorize them into risk categories. The CDFI Fund estimates that 75% of
its loan portfolio will be recorded in the subledger system by June 30, 2010.

These procedures will result in additional data to be used in conjunction with the loan analysis described
above, thus further improving the process the CDFI Fund began implementing in June 2009.

Improvements are needed in the accounting for investments

Management’s Response:

The CDFI Fund concurs with recommendation number one. As of September 30, 2009 the CDFI Fund has
adjusted the accounting treatment for investments. Investments are currently appropriately recognized,
valued and have been evaluated for potential other-than-temporary impairments based on investment type.
The CDFI Fund will continue the appropriate accounting treatment going forward and will develop formal
policies and procedures by January 31, 2010 to ensure the CDFI Fund, BPD-ARC, and OFM are aware of
the appropriate investment methodology and practices.

The CDFI Fund concurs with recommendation number two. Changes to investment awards occur very
infrequently. Starting in FY 2010, the CDFI Fund will notify BPD-ARC of any changes to the investments
status (amendment, redemption) so that BPD-ARC can update the investment schedule it maintains. The
requirement for notification to BPD-ARC of approved changes to the investments and/or investees will be
included in the award amendment policies and procedures under development. In addition, the CDFI Fund
will review the investment schedule provided and maintain by BPD–ARC on a monthly basis.




                                                   37
                                                                                            Exhibit II

Improvements are needed in the preparation and review of the financial statements

Management’s Response:

The CDFI Fund concurs with recommendation number one. The CDFI Fund will review its current policies
and procedures and work with OFM and BPD to establish additional policies and procedures, where
necessary, to ensure all potential events and transactions that could occur throughout the year are
appropriately presented or disclosed in the financial statements.

The CDFI Fund concurs with recommendation number two. The CDFI Fund will ensure that additional
training is provided to the appropriate personnel to facilitate better understanding and application of
generally accepted accounting principles in accordance with FASB.




                                                  38
                                                                                    Exhibit III

                   Community Development Financial Institution Fund

                                  Status of Prior Year Findings




       Fiscal Year 2008 Finding                  Deficiency Type       Fiscal Year 2009
                                                                            Status

1) Improvements needed in management          Significant Deficiency       Closed
   communication

2) Improvements needed in controls over       Significant Deficiency       Closed
   awards monitoring




                                               39
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the statements of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (the Fund) as of September 30, 2009 and 2008, and the related
statements of operations and changes in net position, and cash flows (hereinafter referred to as “Financial
Statements”) for the year ended September 30, 2009, and have issued our report thereon dated
November 10, 2009. We were not engaged to audit the statements of operations and changes in net
position, and cash flows for the year ended September 30, 2008, and therefore, we did not express an
opinion on those financial statements. As discussed in Note 3 to the Financial Statements, the Fund
adopted the provisions of the Financial Accounting Standards Board’s Accounting Standards Codification
Topic 820, Fair Value Measurements and Disclosures, effective October 1, 2008.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the Financial Statements are free of material misstatement.

The management of the Fund is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the Fund. As part of obtaining reasonable assurance about whether the Fund’s
Financial Statements are free of material misstatement, we performed tests of the Fund’s compliance with
certain provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could
have a direct and material effect on the determination of the financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, contracts, and grant agreements applicable to the Fund. However, providing an opinion
on compliance with those provisions was not an objective of our audit, and accordingly, we do not express
such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Fund’s management, the Department of the
Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 10, 2009


                                                                        40
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
D




Financial Statements
and Notes




                                  41

         CDFI Fund FY 2009 Performance and Accountability Report
                             Community Development Financial Institutions Fund
                                     Statements of Financial Position
                                   As of September 30, 2009 and 2008


                                                                          2009          2008
                                    Assets

    Fund Balance with Treasury (Note 4)                               $    82,943,254    90,410,166
    Advances and prepayments                                                  930,210       749,272
    Loans receivable, net of allowance for bad
       debts of $9,282,169 in 2009 and $15,278,741 in 2008 (Note 5)        51,375,835    45,836,224
    Investments, amortized cost (Note 6)                                    4,505,000     6,800,000
    Investments, equity and cost method (Notes 8 and 9)                    24,616,582    25,921,582
    Interest receivable                                                       379,340       339,022
    Internal-use software, net of accumulated amortization of
      $3,492,293 in 2009 and $2,884,379 in 2008                             1,048,058     1,482,874
    Internal-use software in development                                      352,517       436,050
                Total assets                                          $   166,150,796   171,975,190

                      Liabilities and Net Position

    Accounts payable                                                  $       334,113       536,479
    Awards payable                                                          7,909,214    20,800,195
    Accrued payroll                                                           381,966       317,927
    Accrued annual leave                                                      473,422       377,724
    Debt (Note 10)                                                         40,638,011    41,402,862
                Total liabilities                                          49,736,726    63,435,187

    Commitments (Note 11)

    Unexpended appropriations (Note 12)                                    91,546,608    81,220,327
    Cumulative results of operations                                       24,867,462    27,319,676
                Total net position                                        116,414,070   108,540,003

                Total liabilities and net position                    $   166,150,796   171,975,190



The accompanying notes are an integral part of these statements




                                                              42
                      Community Development Financial Institutions Fund
                     Statements of Operations and Changes in Net Position
                          Years Ended September 30, 2009 and 2008


                                                                                     (Unaudited)
                                                                      2009              2008

Revenue and other income:
 Appropriations                                                   $   195,711,732       69,790,071
 Imputed other income - expenses paid by others (Note 13)                 732,293          607,683
 Interest, non-federal                                                  1,235,417        1,240,463
 Interest, federal                                                         91,000          176,738
 Dividends                                                                205,072          349,042

    Total revenue and other income                                    197,975,514       72,163,997

Expenses:
  CDFI grants                                                         162,141,364       35,884,231
  BEA grants                                                           21,682,117       18,647,976
  Administrative expense (Note 14)                                     16,632,431       14,615,331
  Reversal of bad debt expense                                         (5,901,595)        (360,848)
  Administrative expenses paid by others (Note 13)                        732,293          607,683

    Total operating expenses                                          195,286,610       69,394,373

  Treasury borrowing interest                                           2,072,015        2,222,201
  Impairment losses                                                     2,519,103          839,776
  Equity in loss of associates                                            550,000          250,000

    Total expenses                                                    200,427,728       72,706,350

    Net loss (Note 15)                                            $    (2,452,214)        (542,353)

Cumulative results of operations, beginning of year               $    27,319,676       27,862,029
Net loss                                                               (2,452,214)        (542,353)

    Cumulative results of operations, end of year                 $    24,867,462       27,319,676



The accompanying notes are an integral part of these statements




                                                            43
                          Community Development Financial Institutions Fund
                                     Statements of Cash Flows
                             Years Ended September 30, 2009 and 2008

                                                                                         (Unaudited)
                                                                          2009              2008
Cash flows from operating activities:
 Net loss                                                             $    (2,452,214)        (542,353)
 Adjustments to reconcile net loss to net cash used in operations:
   Impairment losses                                                        2,519,103          839,776
    Equity in loss of associates                                              550,000          250,000
   Amortization expense                                                       607,914          623,893
   Accretion of discount                                                      (44,103)             -
   Reversal of bad debt expense                                            (5,901,595)        (360,848)
 Change in assets and liabilities:
   Decrease (increase) in advances and prepayments                           (180,938)          31,778
   Decrease (increase) in interest receivable                                 (40,318)         245,812
   Decrease in other receivable                                                   -             18,506
   Increase (decrease) in accounts payable and accrued payroll               (138,327)         264,051
   Increase (decrease) in awards payable                                  (12,890,981)       7,453,031
   Increase in accrued annual leave                                            95,698           67,890

                Net cash (used in)/provided by operating activities       (17,875,761)       8,891,536

Cash flows from investing activities:
   Proceeds from disposition of investments                                   675,000           425,000
   Investments in awardees                                                   (100,000)              -
   Acquisition of internal-use software                                       (89,565)         (436,050)
   Loans disbursed                                                         (3,556,284)       (1,096,906)
   Collection of loan principal                                             3,918,268         2,540,298

                Net cash provided by investing activities                    847,419         1,432,342

Cash flows from financing activities:
 Increase in unexpended appropriations, net                               10,326,281        21,049,509
 Borrowings from Treasury                                                  2,814,895         2,864,834
 Loan payments to Treasury                                                (3,579,746)       (3,363,822)

                Net cash provided by financing activities                  9,561,430        20,550,521

                Net change in Fund balance with Treasury                   (7,466,912)      30,874,399

Fund balance with Treasury, beginning of year                             90,410,166        59,535,767

Fund balance with Treasury, end of year                               $   82,943,254        90,410,166



The accompanying notes are an integral part of these statements




                                                                 44
D




    COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND
                      Notes to Financial Statements

                      September 30, 2009 and 2008




                                            45

                CDFI Fund FY 2009 Performance and Accountability Report
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                        Notes To Financial Statements

                                        September 30, 2009 and 2008

(1)   Description of Reporting Entity
      The Community Development Financial Institutions Fund (the Fund) was created as a bipartisan
      initiative in the Riegle Community Development and Regulatory Improvement Act of 1994 (Public
      Law No. 103-325). The Fund was placed in the Department of the Treasury and began operations in
      July 1995.

      The Fund operates various programs aimed at expanding the availability of credit, investment
      capital, and financial and other services in distressed urban, rural, and Native American
      communities. The Fund is intended to help create a national network of financial institutions
      dedicated to community development that leverages private resources (financial and human) to
      address community development needs.

      The major programs operated by the Fund are the Community Development Financial Institutions
      Program (consisting of a Financial Assistance and Technical Assistance Component), the New
      Markets Tax Credit Program, the Bank Enterprise Awards Program, and Native Initiatives.

      The Community Development Financial Institutions (CDFI) Program provides financial and
      technical assistance awards to certified community development financial institutions (CDFIs) which
      in turn provide services to create community development impact in underserved markets. Financial
      assistance awards take the form of grants, direct loans, and equity investments. Technical Assistance
      grants provide assistance to start-up and early-stage CDFIs and entities planning to become CDFIs.

      The Fund implemented the New Markets Tax Credit (NMTC) Program during fiscal year 2002.
      Under this program, the Fund provides an allocation of tax credits to Community Development
      Entities (CDEs), which use these credits to attract private sector investment. Proceeds from these
      investments are used for community development purposes. Unlike the Fund’s grant programs, the
      allocation of tax credits to CDEs has no effect on the financial statements of the Fund.

      The Bank Enterprise Awards (BEA) Program provides incentives to insured depository institutions
      (banks and thrifts) to invest in CDFIs and to increase their lending and financial services in
      distressed communities. Program participants are selected based on projected achievements. The
      awards are disbursed only after the activities have been implemented successfully, to ensure that
      only completed activities are recognized and that the Fund’s limited dollars are effectively leveraged
      with private capital.

      Through Native Initiatives, the CDFI Fund provides grants to help create CDFI’s and to build the
      capacity of existing Native CDFIs that serve primarily Native American, Alaska Native, and Native
      Hawaiian communities.

(2)   The American Recovery and Reinvestment Act of 2009
      The American Recovery and Reinvestment Act of 2009 (“the Recovery Act”) appropriated an
      additional $100 million to the CDFI Fund for the fiscal year (FY) 2009 funding round to make
      awards through the CDFI Program and the Native American CDFI Assistance (NACA) Program. Of
      this amount, $90 million was made available to Community Development Financial Institutions
      (CDFIs) under the Financial Assistance (FA) Component of the CDFI Program, $8 million was
                                                46

                             CDFI Fund FY 2009 Performance and Accountability Report
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                        Notes To Financial Statements

                                        September 30, 2009 and 2008

      made available under the NACA Program, and $2 million was used to fund administrative costs
      incurred by the CDFI Fund.

      For all CDFI Program awards made under the FY 2009 funding round, regardless of the source of
      funds (i.e., the Recovery Act vs. standard annual appropriations), the Recovery Act waives: (1) the
      requirement that the awardee obtain matching funds from non-Federal sources; and (2) the general
      requirement that no single awardee (or its affiliates) can receive more than $5 million in assistance
      from the CDFI Fund over a 3-year period. This allows the CDFI Fund to make all of its CDFI
      Program awards for the FY 2009 round in the form of grants, while in prior award rounds the form
      of the award was based on the form of the matching funds.

      The Recovery Act also authorizes the CDFI Fund to allocate an additional $3 billion in tax credit
      authority to qualified Community Development Entities (CDEs) under the NMTC Program, as
      follows: $1.5 billion (unaudited) to CDEs that applied for allocation authority under the 2008 NMTC
      allocation round; and $1.5 billion (unaudited) to CDEs that apply for allocation authority under the
      2009 NMTC allocation round. This is not an amount subject to accounting and reporting by the Fund
      and is for informational purposes only.

(3)   Summary of Significant Accounting Policies

      (a)   Basis of Presentation
            The American Institute of Certified Public Accountants (AICPA) has designated the Federal
            Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial
            statements of federal governmental entities, with respect to the establishment of accounting
            principles generally accepted in the United States of America. SFFAS 34, issued by FASAB,
            provides authoritative guidance allowing federal entities to prepare financial statements in
            conformance with accounting and reporting principles issued by the Financial Accounting
            Standards Board (FASB). Accordingly, the Fund financial statements are presented in
            accordance with accounting standards published by FASB.

      (b)   Use of Estimates

            The preparation of financial statements in conformity with accounting principles generally
            accepted in the United States of America requires management to make estimates and
            assumptions that affect the reported amounts of assets and liabilities and disclosure of
            contingent assets and liabilities at the date of the financial statements and the reported amounts
            of revenues and expenses during the reporting period. Actual results could differ from these
            estimates. Significant items subject to such estimates include allowance for bad debts and the
            identification and valuation of investment impairments.

      (c)   Fund Balance with Treasury
            The Fund does not maintain cash in commercial bank accounts. The U.S. Department of the
            Treasury (Treasury Department) processes cash receipts and disbursements. Fund Balance
            with Treasury is composed primarily of appropriated and borrowed funds (financing and

                                                         47

                             CDFI Fund FY 2009 Performance and Accountability Report
          COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                  Notes To Financial Statements

                                  September 30, 2009 and 2008

      program accounts) that are available to pay liabilities and finance authorized award and
      purchase commitments.

(d)   Loans Receivable, net of Allowance for Bad Debts
      Loans receivable relate to direct loans made to certain CDFI Program awardees and are
      recorded at face value. Direct and incremental loan costs are deemed to be de minimis. Any
      interest is recognized over the life of the loan, when earned. Amounts collected on loans
      receivable are included in cash flows from investing activities in the statements of cash flows.
      During FY 2009, the CDFI Fund received requests from awardees requesting an extension of
      their maturity dates. As of September 30, 2009, the requests are being processed in
      collaboration with the Office of Management and Budget and the Department of the Treasury
      Office of Financial Management. While the loan extensions are being processed, awardees do
      not make principal payments. The Fund continues to collect interest on all loans that are
      delinquent, past maturity or when ultimate collectability is in doubt.

      The allowance for bad debts is the Fund’s best estimate of the amount of credit losses in the
      Fund’s existing loans. The allowance includes both specific and non-specific loan analysis.
      The non-specific portion of the allowance considers historical write-off trends and current
      market conditions. The specific portion is determined on an individual basis upon review of
      any loan that has a past due balance or no payment required until maturity. A loan is
      considered impaired pursuant to FASB ASC-310-10-35. A loan is impaired if it is probable
      that the Fund will not collect all principal and interest contractually due. The impairment is
      measured based on the present value of the expected future cash flows discounted at the loan’s
      effective interest rate. Impairment losses are charged against the allowance and increases in the
      allowance are charged to bad debt expense. Loans are written off against the allowance when
      all possible means of collection have been exhausted and the potential for recovery is
      considered remote. The Fund has recorded the interest income when received on the impaired
      loans that have been submitted for loan modifications.

(e)   Interest Receivable
      Interest is accrued on the outstanding loans receivable principal balances and investments
      based on stated rates of interest.

(f)   Investments
      The Fund provides assistance to certain for-profit CDFI program awardees by purchasing
      various investments described below. The Fund is restricted from owning more than 50% of
      the equity of awardees and from controlling their operations. Held-to-maturity debt securities
      are those debt securities in which the Fund has the ability and intent to hold the security until
      maturity.

          •   Non-voting Equity Securities: These investments are carried at original cost subject to
              other-than-temporary impairments.

          •   Secondary Capital Interests: These interests are held-to-maturity and carried at
                                                   48

                       CDFI Fund FY 2009 Performance and Accountability Report
          COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                  Notes To Financial Statements

                                  September 30, 2009 and 2008

              amortized cost subject to other-than-temporary impairments.

          •   Convertible Subordinated Debt: This instrument exhibits sufficient characteristics of
              an equity security as the Fund is entitled to any dividends in the non-voting common
              stock as if the Fund had converted the debentures into such stock prior to the
              declaration of the dividend. This investment is held-to-maturity and carried at
              amortized cost, net of applicable discounts, subject to other-than-temporary
              impairments.

          •   Limited Partnership Interests: These interests are carried in accordance with the equity
              method of accounting by recognizing the pro-rata share of investee profit/loss through
              the statement of operations. Investments are further subject to assessment of any other-
              than-temporary impairments as discussed below.

          •   Certificates of Deposits: These investments are held-to-maturity and recognized at cost
              as they are fully insured.

      Held-to-maturity debt securities are recorded at amortized cost, adjusted for the amortization
      of premiums or discounts. Premiums and discounts are amortized over the life of any related
      held-to-maturity security as an adjustment to yield using the straight-line method.

      For non-voting equity securities and limited partnerships, a decline in the fair value of any
      security below cost that is deemed to be other-than-temporary results in an impairment to
      reduce the carrying amount to fair value. The impairment is charged to earnings and a new cost
      basis for the security is established. To determine if an impairment is other-than-temporary, the
      Fund considers whether (1) it has the ability and intent to hold the investment until a market
      price recovery and (2) evidence indicating the cost of the investment is recoverable outweighs
      evidence to the contrary. Evidence considered in this assessment includes the reasons for the
      impairment, the severity and duration of the impairment, changes in value subsequent to year-
      end, forecasted performance of the investee, and the general market condition in the industry in
      which the investee operates.

(g)   Internal-Use Software
      Internal-use software represents the completed phases of various software placed in service
      pertaining to 1) processing applications – this software automates the award application
      submission process; 2) geocoding – web-based software that geocodes addresses, census tracts
      and counties, and enables applicants to determine the funding eligibility of census tracts and
      counties under CDFI’s various programs; and 3) the Community Investment Impact System
      (CIIS) – a web-based data collection system for CDFI’s and Community Development
      Entities.
      The software is amortized using the straight-line method over the estimated useful life of seven
      years. Amortization expense for the years ended September 30, 2009 and 2008 was $607,914
      and $623,893 (unaudited), respectively.


                                                   49

                       CDFI Fund FY 2009 Performance and Accountability Report
          COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                  Notes To Financial Statements

                                  September 30, 2009 and 2008

(h)   Internal-Use Software in Development
      Internal- use software encompasses software design, development, and testing of projects
      adding significant new functionality and long-term benefits. Costs for developing internal-use
      software are accumulated in internal-use software in development until a project is placed into
      service, and testing and final acceptance are successfully completed. Once completed the costs
      are transferred to internal-use software.

(i)   Leases
      At the beginning of each fiscal year the Fund obtains the estimated annual amount for all
      operating leases. The Fund then establishes an obligation to be recorded within the financial
      system for the full amount of the estimate. The Fund approves each monthly IPAC transaction
      and submits the approved form to BPD for processing on a monthly basis.

(j)   Awards Payable
      CDFI Program grant expense is recognized and awards payable are recorded when the fund is
      made aware, in writing, that the awardee has met the conditions required for payment and the
      Fund approves a grant disbursement to be made. BEA Program grant expense is recognized
      and awards payable are recorded when the Fund approves the BEA award to be made (i.e. at
      the time the funds are obligated).

(k)   Retirement Plans
      CDFI Fund employees participate in the Civil Service Retirement System (CSRS) or the
      Federal Employees’ Retirement System (FERS). The FERS was established by the enactment
      of Public Law 99-335. Pursuant to this law, FERS and Social Security automatically cover
      most employees hired after December 31, 1983.

      Employees hired prior to January 1, 1984, were provided an opportunity to join either FERS
      and Social Security or remain in CSRS.

      For all employees, a Thrift Savings Plan (TSP) account is automatically established, and the
      employee can have up to a predetermined maximum amount withheld from their base salary,
      which is deposited into their TSP account. For FERS employees only, the Fund makes
      matching contributions ranging from 1% to 4% for employees who contribute to their TSP
      account (there is no matching contribution for CSRS employees).

      In addition, CDFI Fund employees participating in CSRS have 7% of their base salary
      withheld which is contributed into a Retirement Fund. The Fund contributes the same amount
      into the Retirement Fund.

      FERS employees and CSRS reinstatement employees are eligible to participate in the Social
      Security program for retirement. In these instances, the Fund remits the employer’s share of
      the required contribution.


                                                   50

                       CDFI Fund FY 2009 Performance and Accountability Report
          COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                  Notes To Financial Statements

                                  September 30, 2009 and 2008

(l)   Annual, Sick, and Other Leave
      Annual leave and compensatory leave is accrued as a liability when earned by the employee,
      and the accrual is reduced as leave is taken. The balance in this accrued liability account is
      computed using current pay rates. Sick leave and other types of non-vested leave are expensed
      as the leave is taken.

(m)   Debt
      Debt represents borrowings payable to the Treasury Department that were made to fund direct
      loans made by the CDFI Program. Principal repayments to the Treasury Department are
      required to be made based on the collections of loans receivable and are due September 30 of
      each year of maturity.

(n)   Contingencies
      Liabilities for loss contingencies arising from claims, assessments, litigation, fines, penalties
      and other sources are recorded when it is probable that a liability has been incurred and the
      amount of the assessment and/or remediation can be reasonably estimated. Legal costs
      incurred in connection with loss contingencies are expensed as incurred. The Fund has
      employment related cases (e.g., discrimination, Equal Employment Opportunity Commission)
      in which a loss may be reasonably possible, but for which a range of potential loss could not be
      determined.

(o)   Revenue and Other Income
      The Fund receives the majority of its funding through appropriations from the U.S. Congress.
      The Fund receives two-year appropriations that may be used, within statutory limits, for
      awards and operating expenses. Appropriations are recognized as revenues at the time the
      Fund’s grants are recorded as expenses, and when administrative expenses and provision for
      bad debts covered by budgetary resources are incurred.

      Occasionally, the Fund receives dividends on its equity investments and may use those funds
      for awards and operating expenses. Dividends are recognized when received.

      Additional revenue is obtained from interest received on direct loans to the public and on
      uninvested funds held by the Treasury Department. Interest is recognized when earned.

(p)   Tax Status
      The Fund, as a government entity, is not subject to federal, state, or local income taxes and,
      accordingly, no provision for income tax is recorded.

(q)   Fair Value Measurements
      On October 1, 2008 the Fund adopted the provisions of FASB ASC-820-10-05, Fair Value
      Measurements, for fair value measurements of financial assets and financial liabilities. This
      standard defines fair value, establishes a consistent framework for measuring fair value and

                                                   51

                       CDFI Fund FY 2009 Performance and Accountability Report
               COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                         Notes To Financial Statements

                                         September 30, 2009 and 2008

           expands disclosure requirements for fair value measurements (Note 7).

     (r)   Reclassifications
           Certain amounts in the prior year financial statements have been reclassified to conform to the
           current year presentation.


4)   Fund Balance with Treasury
     Fund balance with Treasury as of September 30, 2009 and 2008 consisted of the following
     components:

                                                                     2009               2008

                  Available                                $        11,442,084 $         3,382,280
                  Obligated                                         70,230,550          85,664,264
                  Expired                                            1,270,620           1,363,622
                                                           $        82,943,254 $        90,410,166


     Fund balance with Treasury includes appropriated and borrowed funds available to pay liabilities and
     to finance authorized award and purchase commitments.




                                                          52

                              CDFI Fund FY 2009 Performance and Accountability Report
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                        Notes To Financial Statements

                                        September 30, 2009 and 2008

(5)   Loans Receivable
      Loans receivable are primarily from the funds provided to awardees. Receivables consisted of the
      following:

                                                                                                         (Unaudited)
                                                                                       2009                 2008
      Balance as of beginning of year                                             $    61,114,965    $     62,558,357
       Add: Loans disbursed                                                             3,556,284           1,096,906
       Less: Loan repayments                                                           (3,918,268)         (2,540,298)
       Less: Write off of loans                                                           (94,977)                -
      Allowance for bad debts                                                          (9,282,169)        (15,278,741)
      Loans receivable, net, as of end of year                                    $    51,375,835    $     45,836,224
      The changes in the allowance for doubtful accounts consisted
       of the following:
       Balance as of beginning of year                                            $ (15,278,741)     $ (15,639,589)
       Decrease in allowance credited to expense                                      5,901,595            360,848
       Accounts credited against the allowance,
         net of redemptions                                                               94,977                  -
      Balance as of end of year                                                   $    (9,282,169)   $ (15,278,741)


      Current loans receivable as of September 30, 2009 were $7,974,446 (net of allowance of
      $1,440,758). Long-term loans receivable as of September 30, 2009 was $43,401,389 (net of
      allowance of $7,841,411).

      Current loans receivable as of September 30, 2008 were $4,373,080 (net of allowance of
      $1,457,693). Long-term loans receivable as of September 30, 2008 was $41,463,144 (net of
      allowance of $13,821,048).

      Interest accrues on these loans in accordance with applicable awardee assistance agreements. Interest
      income for the years ended September 30, 2009 and 2008 was $1,235,417 and $1,240,463
      (unaudited), respectively. Interest receivable for the years ended September 30, 2009 and 2008 was
      $379,340 and $339,022, respectively.

      During the year ended September 30, 2009 the Fund had recorded investments of $3,073,114 in
      impaired loans and a $1,771,742 related allowance for bad debts. During this year the Fund
      recognized related interest income of $16,682 using a cash-basis method of accounting for these
      impaired loans.




                                                         53

                             CDFI Fund FY 2009 Performance and Accountability Report
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                         Notes To Financial Statements

                                         September 30, 2009 and 2008

(6)   Investment Securities
      The carrying amount, gross unrealized holding losses and fair value of held-to maturity debt
      securities by major security type at September 30, 2009 and 2008 are as follows:

                                                   Aggregate Fair            Gross Unrealized              Net Carrying
                                                       Value                       Loss                      Amount
      Investments, Held to Maturity at
         September 30, 2009:
            Certificates of deposit               $          250,000          $               -        $         250,000
            Convertible debt securities                      280,000                          -                  280,000
            Secondary capital securities                   3,975,000                          -                3,975,000
              Total                               $        4,505,000          $               -        $       4,505,000
      Investments, Held to Maturity at
         September 30, 2008:
            Certificates of deposit               $          175,000          $               -        $         175,000
            Convertible debt securities                    2,000,000                          -                2,000,000
            Secondary capital securities                   4,625,000                          -                4,625,000
               Total                              $        6,800,000          $               -        $       6,800,000



      Maturities of debt securities classified as held-to-maturity were as follows at September 30, 2009:

                                                                                                      Net Carrying
                                                                             Fair Value                 Amount
      Held to Maturity:
        Due within one year                                              $          600,000       $           600,000
        Due after one through five years                                          3,425,000                 3,425,000
        Due after ten years                                                         480,000                   480,000
               Total                                                     $        4,505,000       $         4,505,000


      The Fund evaluates whether unrealized losses on investment securities indicate other-than-temporary
      impairment. Based on this evaluation, the Fund recognized no other-than-temporary impairment
      losses of these investments in 2009 or 2008.




                                                          54

                              CDFI Fund FY 2009 Performance and Accountability Report
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                         Notes To Financial Statements

                                         September 30, 2009 and 2008

      Convertible debt securities consist of non-interest bearing convertible subordinated debentures. As of
      September 30, 2009 and 2008, this category consists of one debenture of $2 million which matures
      January 2048 with the option to convert into 200,000 shares of non-voting class B common stock at a
      $10 per share conversion price.

      Secondary capital securities consist of investments that cannot be redeemed prior to scheduled
      redemption dates.

      Certificates of deposits are investments in federal credit union awardees, and have interest rates
      ranging from 0 percent to 2 percent.

(7)   Fair Value Measurements
      (a)   Fair Value of Financial Instruments

            The following table presents the carrying amounts and estimated fair values of the Fund’s
            financial instruments at September 30, 2009 and 2008. The fair value of an instrument is the
            amount that would be received to sell an asset or paid to transfer a liability in an orderly
            transaction between market participants at the measurement date.

                                                                2009                                   2008
                                                  Carrying                                 Carrying
                                                  amount               Fair value          amount             Fair value
            Financial assets:
               Fund Balance
                   with Treasury             $ 82,943,254          $ 82,943,000         $ 90,410,166    $ 90,410,000
               Loans receivable                51,375,835            33,858,000           45,836,224      32,764,000
               Investments, amortized
                  cost                             4,505,000             4,505,000         6,800,000           5,080,000
               Investments, cost
                  method                          21,274,820           25,963,000         22,029,820          26,311,000
               Interest receivable                   379,340              379,000            339,022             339,000
            Financial liabilities:
               Awards payable                      7,909,214            7,909,000         20,800,195          20,800,000
               Debt                               40,638,011           22,304,000         41,402,862          22,625,000


            The following methods and assumptions were used to estimate the fair value of each class of
            financial instrument:

            Fund Balance with Treasury, interest receivable and awards payable: The carrying amounts, at
            face value or cost plus accrued interest, approximate fair value because of the short maturity of
            these instruments.


                                                          55

                              CDFI Fund FY 2009 Performance and Accountability Report
          COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                  Notes To Financial Statements

                                  September 30, 2009 and 2008

      Loans receivable, debt, convertible debt securities and secondary capital securities: The fair
      value is determined as the present value of future contractual cash flows discounted at an
      interest rate that reflects the risks inherent in those cash flows. The discount rates approximate
      rates currently offered by local lending institutions for loans of similar terms to companies
      with comparable risk. The fair value of nonperforming loans is determined as the present value
      of expected future cash flows discounted at an interest rate that reflects the risks inherent in
      those cash flows. The expected cash flows were estimated based on the awardee’s financial
      condition and the long-term potential of the business in relation to the maturity date of the
      loan.

      Non-voting equity securities: The Fund records these equity investments under the cost method
      of accounting. The Fund considers qualitative assessments of the viability of the investee,
      fundamental financial analysis and evaluation of the financial statements of the investee and
      prospects for its future.

      Certificates of deposit: The fair value of certificates of deposit is discounted cash flow at a
      market rate.

(b)   Fair Value Hierarchy

      On October 1, 2008 the Fund adopted the provisions of FASB ASC-820-10-05, Fair Value
      Measurements, for fair value measurements of financial assets and financial liabilities. This
      standard defines fair value, establishes a consistent framework for measuring fair value and
      expands disclosure requirements for fair value measurements. This standard establishes a fair
      value hierarchy that prioritizes the inputs to valuation techniques used to measure fair value.
      The hierarchy gives the highest priority to unadjusted quoted prices in active markets for
      identical assets or liabilities (Level 1 measurements) and the lowest priority to measurements
      involving significant unobservable inputs (Level 3 measurements). The three levels of the fair
      value hierarchy are as follows.

      •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or
          liabilities that the Fund has the ability to access at the measurement date.

      •   Level 2 inputs are inputs other than quoted prices included within Level 1 that are
          observable for the asset or liability, either directly or indirectly.

      •   Level 3 inputs are unobservable inputs for the asset or liability.

      None of the Fund’s investments are in publicly traded entities for which a share price can be
      readily obtained; accordingly, the Fund used Level 3 inputs to measure fair value of
      investments.




                                                   56

                       CDFI Fund FY 2009 Performance and Accountability Report
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                       Notes To Financial Statements

                                       September 30, 2009 and 2008

(8)   Cost Method Investments
      Investments accounted for under the cost method consist of non-voting common stock held in for-
      profit CDFI Program awardees and preferred non-voting stock held in two awardees. The aggregate
      amount of these investments is $21,274,820 and $22,029,820 at September 30, 2009 and 2008
      respectively. All securities were evaluated for impairment. Two investments were written off during
      fiscal year 2009 totaling $525,000.

(9)   Equity Method Investments
      Investments accounted for under the equity method consist of a Class B limited partnership interest
      in Sustainable Jobs Fund, LP (12%), an interest in Pacific Community Ventures (9%), a non-voting
      redeemable transferable interest in BCLF Ventures II, LLC (18%) and three units of preferred
      interest in Shorebridge Capital LLC (17%). These totaled $3,341,762 and $3,891,762 at September
      30, 2009 and 2008, respectively.

(10) Debt
      Debt consists of amounts borrowed from the U.S. Treasury Department and included the following
      activity for the years ended September 30, 2009 and 2008:
                                                                                                  (Unaudited)
                                                                                 2009                2008
      Beginning balance                                                $       41,402,862 $       41,901,850
      New borrowings                                                            2,814,895          2,864,834
      Repayments                                                               (3,579,746)        (3,363,822)
                      Ending balance                                   $       40,638,011    $    41,402,862

      The payments to Treasury are due on September 30 of each year of maturity. Principal payments on
      this debt as of September 30, 2009 are as follows:

                                                                                      Principal
                     Fiscal Year                                                      Payments
                          2010                                             $                     -
                          2011                                                                   -
                          2012                                                             636,914
                          2013                                                             658,895
                          2014                                                          38,719,090
               Later years, through 2037                                   $            40,014,899


      During fiscal year 2009, the Fund borrowed $2,325,810 to finance current year direct loan
      commitments and $489,085 to meet annual interest payments due to the Treasury Department, at
      interest rates ranging from 3.55% to 6.48%, depending on maturity dates or risk categories.

                                                        57

                            CDFI Fund FY 2009 Performance and Accountability Report
              COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                     Notes To Financial Statements

                                     September 30, 2009 and 2008

    During fiscal year 2008, the Fund borrowed $2,590,737 (unaudited) to finance current year direct
    loan commitments and subsidy reestimates and $274,097 (unaudited) to meet annual interest
    payments due to the Treasury Department, at interest rates ranging from 3.55% (unaudited) to 6.77%
    (unaudited), depending on maturity dates or risk categories.

    Interest paid in cash for the years ended September 30, 2009 and 2008 was $2,072,015 and
    $2,222,201 (unaudited), respectively.

(11) Commitments
    (a)   Operating Leases
          The Fund leases office space from the General Services Administration in the Homer Building
          located in Washington, D.C. under the terms of an operating lease (renewed in FY 2007)
          which expires in January 2012. The Fund also leases equipment under the terms of an
          operating lease. The total operating lease expense was $1,485,251 and $1,283,464 (unaudited)
          for the years ended September 30, 2009 and 2008, respectively.

          Future minimum payments due under these operating leases as of September 30, 2009 were as
          follows:

                                                                               Minimum Lease
                    Fiscal Year                                                  Payments
                       2010                                               $         1,475,038
                       2011                                                         1,479,885
                       2012                                                            37,183
                       2013                                                            37,183
                       2014                                                            37,183
                                                                          $         3,066,472


    (b)   Award and Purchase Commitments
          As of September 30, 2009 and 2008, award commitments amounted to $58,624,309 and
          $63,510,459 (unaudited), respectively. Award commitments relate to CDFI Program and
          Native Initiative Program awards which were approved by Fund management but not
          disbursed as of the end of the year. These award commitments are not considered liabilities at
          year-end because the awardees have not met the conditions required for payment. Award
          commitments pertaining to the Bank Enterprise Award (BEA) Program of $7,909,214 and
          $20,800,195 as of September 30, 2009 and 2008, respectively, are excluded from these
          amounts since they are reflected as liabilities on the Fund’s balance sheet.

          Purchase commitments of $3,911,158 and $3,900,335 (unaudited) as of September 30, 2009
          and 2008, respectively, relate to the unexpired portion of contracts, and purchase orders
          relating to goods and services not yet received.

                                                      58

                          CDFI Fund FY 2009 Performance and Accountability Report
               COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                       Notes To Financial Statements

                                       September 30, 2009 and 2008

(12) Unexpended Appropriations
     Unexpended appropriations for the years ended September 30, 2009 and 2008 were as follows:
                                                                                                        (Unaudited)
                                                                                  2009                     2008
     Beginning unexpended appropriations                               $       81,220,327 $               60,170,818
       Appropriations received                                                207,000,000                 94,000,000
       Appropriations for Subsidy Reestimate                                           —                   1,078,368
       Appropriations cancelled                                                  (961,987)                (2,340,417)
       Appropriations expended                                               (195,711,732)               (69,790,071)
       Downward Reestimate Adjustment                                                  —                  (1,898,371)
               Change in unexpended appropriations                              10,326,281               21,049,509
     Ending unexpended appropriations                                  $        91,546,608      $        81,220,327


(13) Imputed Financing
     Imputed financing represents specific expenses relating to the Fund paid for by another Federal
     organization. The components of imputed financing for the years ended September 30, 2009 and
     2008 are as follows:
                                                                                                        (Unaudited)
                                                                                      2009                 2008
     Pension Cost (CSRS Retirement Plan)                                    $          82,351       $        69,674
     Pension Cost (FERS Retirement Plan)                                               14,454                    —
     Health Insurance (Health Benefits Program)                                       310,824               266,220
     Life Insurance (Group Life Insurance Program)                                        952                   908
     Audit Fees                                                                       323,712               270,881
                    Total                                                  $          732,293       $       607,683




                                                        59

                            CDFI Fund FY 2009 Performance and Accountability Report
                COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                        Notes To Financial Statements

                                        September 30, 2009 and 2008

(14) Administrative Expenses
     Administrative expenses consist of the following for the years ended September 30, 2009 and 2008:

                                                                                                        (Unaudited)
                                                                                         2009              2008
      Personnel compensation and benefits                                      $        7,248,561   $     6,973,567
      Travel                                                                              221,162           321,673
      Rent, communications, utilities and miscellaneous charges                         2,636,858         1,496,774
      Contractual services                                                              5,372,395         4,857,380
      Information technology systems maintenance                                          258,359           191,197
      Amortization                                                                        607,914           623,893
      Supplies and printing                                                               191,385            82,253
      Other                                                                                95,797            68,594
                     Total                                                     $       16,632,431   $   14,615,331


(15) Net Loss
     The net loss for fiscal year 2009 and 2008 includes $0 and $51,900 (unaudited), respectively, of
     grants and subsidies that were funded from the Fund’s no-year account. The no-year account consists
     of the proceeds from the redemption of investments (see note 3 for a description of the types of
     investments) as well as income received from these investments.

     Pursuant to the Fund’s authorizing legislation, the no-year account can be used to fund new awards.
     Unlike Fund awards that are made out of appropriated funds (which serve to increase grant expenses
     as well as appropriated capital used and so have no effect on the shortage of revenue and financing
     sources under expenses), awards funded from the no-year account only affect grant expenses, and so
     serve to increase the net loss.

(16) Fair Values of Financial Instruments
     The Fund does not record investments or loans at fair value on a recurring basis. However, from
     time-to-time, the Fund records nonrecurring fair value adjustments to reflect partial write-downs that
     are based on current financial indicators of the awardees. The Fund uses qualitative assessments of
     the viability of the awardee, evaluation of the financial statements of the awardee and prospects for
     its future. Financial statement disclosures and audit opinions were reviewed for the most recent five
     years for indications of going concern or operational issues. Calculations of pro-rata equity,
     capitalized cash flow analysis, total cash and other trend analysis were performed to determine fair
     value.




                                                         60

                             CDFI Fund FY 2009 Performance and Accountability Report
               COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

                                       Notes To Financial Statements

                                       September 30, 2009 and 2008

     For assets measured at fair value on a nonrecurring basis in 2009 that were still on the balance sheet
     at year end, the following table provides the level of valuation assumptions used and the carrying
     value of the related individual assets or portfolios at year end.
                                         Fair Value Measurements Using
                                     Level 1       Level 2        Level 3                   Total Loss

     Investments                $         —         $          —         $ 21,274,820   $    (755,000)

             Total              $         —         $          —         $ 21,274,820   $    (755,000)


     Investments with a carrying value of $22,029,820 were written down to their fair value of
     $21,274,820, resulting in an impairment loss of $755,000, which was included in earnings for the
     period.

(17) Related Party Transactions
     During fiscal year 2009 the Fund awarded a grant for $89,530 to Pacific Community Ventures, with
     whom the Fund holds a limited interest.

     The Fund has Interagency agreements with the Department of Treasury. As of September 30, 2009
     these related party expenses amounted to $2,523,100.

     Expenses were recorded as follows: Interagency Agreements with Treasury’s Departmental Offices,
     Office of Financial Management (OFM) for Financial Management Services, Conference and
     Events; Postage; Human Resources Services, for the amount of $736,485. An Interagency
     Agreement with the Working Capital Fund shared IT services from the Office of the Chief
     Information Officer, for the amount of $1,108,202. An Interagency Agreement with the Bureau of
     Public Debt (BPD) for Accounting Services Application Intake Process, for the amount of $107,938.
     An Interagency Agreement with BPD for Accounting Services; eTravel; and website hosting, for the
     amount of $570,475.




                                                        61

                            CDFI Fund FY 2009 Performance and Accountability Report
D




Appendices
(Unaudited)




                                 62

        CDFI Fund FY 2009 Performance and Accountability Report
D




               Appendix A                                                                                                                                                           FY 2009 CDFI
                                                                              Fund Award and Allocation Activities
                                                                                                                                                                             Allocation of New
                                     FA Awards                       SECA/TA Only Awards (    NI Awards                   BEA Awards           Total Awards                 Markets Tax Credits
       STATE                         #             $             #            $               #           $          #             $            #              $               #               $
    Alabama                             0                 $0         0              $0            -             $0    -                   $0        -                  $0          -                   $0
    Alaska                              0                 $0         0              $0           4        $868,661    -                   $0       4            $868,661           1          $50,000,000
    Arizona                             1         $1,000,000         0              $0           6      $2,877,793    1             $700,000       8           $4,577,793          1          $25,000,000
    Arkansas                            0                 $0         0              $0            -             $0    -                   $0        -                  $0          2         $125,000,000
    California                         10        $16,000,000         7      $1,972,539           2        $243,526    6           $3,426,252      25          $21,642,317         13         $513,000,000
    Colorado                            0                 $0         1        $100,000            -             $0    -                   $0       1            $100,000           4         $145,000,000
    Connecticut                         1           $910,000         0              $0            -             $0    1             $432,000       2           $1,342,000          1          $85,000,000
    Delaware                            0                 $0         0              $0            -             $0    1             $700,000       1            $700,000           -                   $0
    District of Columbia                3         $3,000,000         2       $594,992             -             $0    1             $700,000       6           $4,294,992          5         $260,000,000
    Florida                             0                 $0         0              $0            -             $0    1             $700,000       1            $700,000           2         $120,000,000
    Georgia                             1         $1,000,000         2       $850,000             -             $0    3             $604,282       6           $2,454,282          2         $120,000,000
    Hawaii                              0                 $0         1        $100,000           3        $845,000    -                   $0       4            $945,000           -                   $0
    Idaho                               0                 $0         0              $0            -             $0    -                   $0        -                  $0          -                   $0
    Illinois                            3         $4,000,000         2       $194,582             -             $0   14           $6,732,686      19          $10,927,268          5         $265,000,000
    Indiana                             0                 $0         0              $0            -             $0    -                   $0        -                  $0          1          $50,000,000
    Iowa                                0                 $0         1        $500,000            -             $0    -                   $0       1            $500,000           3         $215,000,000
    Kansas                              0                 $0         0              $0            -             $0    -                   $0        -                  $0          -                   $0
    Kentucky                            3         $5,000,000         1       $500,000             -             $0    7             $581,700      11           $6,081,700          1          $25,000,000
    Louisiana                           2         $4,000,000         0              $0            -             $0    1             $700,000       3           $4,700,000          5         $300,000,000
    Maine                               2         $3,000,000         0              $0           1        $877,550    -                   $0       3           $3,877,550          1         $125,000,000
    Maryland                            0                 $0         2        $195,288            -             $0    -                   $0       2            $195,288           9         $350,000,000
    Massachusetts                       2         $3,000,000         5      $1,955,651            -             $0    1             $477,474       8           $5,433,125          4         $280,000,000
    Michigan                            2         $3,000,000         0              $0           3        $426,532    -                   $0       5           $3,426,532          4         $178,000,000
    Minnesota                           5         $7,000,000         4      $1,700,000           3        $872,131    4           $1,932,807      16          $11,504,938          3         $180,000,000
    Mississippi                         0                 $0         0              $0            -             $0    1              $14,580       1              $14,580          1          $20,000,000
    Missouri                            1         $1,000,000         0              $0            -             $0    1             $700,000       2           $1,700,000          7         $420,000,000
    Montana                             1         $2,000,000         2       $633,010            1        $119,739    -                   $0       4           $2,752,749          -                   $0
    Nebraska                            0                 $0         1        $600,000            -             $0    -                   $0       1            $600,000           -                   $0
    Nevada                              0                 $0         0              $0            -             $0    -                   $0        -                  $0          -                   $0
    New Hampshire                       1         $2,000,000         0              $0            -             $0    -                   $0       1           $2,000,000          -                   $0
    New Jersey                          2         $3,000,000         1       $500,000             -             $0    1             $700,000       4           $4,200,000          1          $20,000,000
    New Mexico                          0                 $0         2      $1,100,000           2        $620,000    -                   $0       4           $1,720,000          -                   $0
    New York                           13        $19,800,000         8      $3,222,761           1         $24,390    1             $700,000      23          $23,747,151         10         $695,000,000
    North Carolina                      2         $4,000,000         0              $0           2        $612,174    1              $72,000       5           $4,684,174          1          $30,000,000
    North Dakota                        0                 $0         1        $600,000           1        $132,377    -                   $0       2            $732,377           -                   $0
    Ohio                                3         $2,500,000         1       $500,000             -             $0    -                   $0       4           $3,000,000          8         $290,000,000
    Oklahoma                            1         $2,000,000         0              $0           2      $1,266,522    -                   $0       3           $3,266,522          3          $85,000,000
    Oregon                              3         $5,000,000         0              $0            -             $0    1             $216,547       4           $5,216,547          3         $100,000,000
    Pennsylvania                        5         $9,000,000         5      $1,424,392            -             $0    1             $165,501      11          $10,589,893          3         $109,000,000
    Puerto Rico                         1         $1,000,000         3       $797,394             -             $0    -                   $0       4           $1,797,394          2          $55,000,000
    Rhode Island                        0                 $0         0              $0            -             $0    -                   $0        -                  $0          -                   $0
    South Carolina                      0                 $0         1        $600,000           1        $149,281    1              $71,726       3            $821,007           1          $60,000,000
    South Dakota                        1         $1,000,000         1         $95,932           6      $3,369,580    -                   $0       8           $4,465,512          -                   $0
    Tennessee                           1         $2,000,000         1         $27,500            -             $0    2             $706,593       4           $2,734,093          1          $30,000,000
    Texas                               4         $4,000,000         1       $500,000            1         $32,756    1             $104,864       7           $4,637,620          4         $185,000,000
    Utah                                0                 $0         1        $500,000            -             $0    -                   $0       1            $500,000           -                   $0
    U.S. Virgin Islands                 0                 $0         0              $0            -             $0    -                   $0        -                  $0          -                   $0
    Vermont                             3         $6,000,000         0              $0            -             $0    -                   $0       3           $6,000,000          1          $30,000,000
    Virginia                            2         $2,000,000         0              $0            -             $0    1              $53,739       3           $2,053,739          6         $415,000,000
    Washington                          2         $2,000,000         4       $754,876            3        $864,989    -                   $0       9           $3,619,865          4         $125,000,000
    West Virginia                       0                 $0         1        $600,000            -             $0    -                   $0       1            $600,000           -
    Wisconsin                           4         $3,750,000         0              $0           2        $735,381    2           $1,139,575       8           $5,624,956          8         $420,000,000
    Wyoming                             0                 $0         0              $0           1        $860,002    -                   $0       1            $860,002           -                   $0

    Amounts Awarded in FY
    2009 Funding Round                 85   $122,960,000         62     $21,118,917    -        45   $15,798,384     55      $22,332,326        247    $182,209,627           131       $6,500,000,000


    (1) Consists of both Technical Assistance Awards and Small and Emerging CDFIs Assistance (SECA) Awards




                                                                                                      63

                                                                 CDFI Fund FY 2009 Performance and Accountability Report
D




                                                         Appendix B: Aggregate Awards
                                                                                                                                 Total Awards From       NMTC            Allocations
      State                         FA Awards           TA/SECA Awards       Native Initiative Awards (1)      BEA Awards             Inception                    (2)
    Alabama                                 $145,000              $475,500                                $0         $615,075               $1,235,575                $40,000,000
    Alaska                                $7,912,500              $306,000                        $1,914,741                $0             $10,133,241                $90,000,000
    Arizona                               $6,806,500              $491,867                        $6,279,257        $1,509,288             $15,086,912              $300,000,000
    Arkansas                             $10,239,300              $605,647                           $70,000        $5,075,223             $15,990,170              $140,000,000
    California                           $75,126,712            $5,442,833                        $1,107,593       $43,512,493            $125,189,631             $2,112,000,000
    Colorado                              $9,631,300            $3,509,066                          $270,000        $2,116,915             $15,527,281              $472,000,000
    Connecticut                           $3,793,500              $863,044                                $0          $805,205              $5,461,749                $85,000,000
    Delaware                                $923,731              $122,000                                $0        $3,451,000              $4,496,731                $50,000,000
    District of Columbia                 $17,803,342            $1,948,842                                $0        $7,257,450             $27,009,634             $1,855,000,000
    Florida                              $17,823,800            $1,355,798                                $0       $10,191,003             $29,370,601              $135,000,000
    Georgia                               $4,783,900            $1,585,281                                $0        $7,390,146             $13,759,327              $504,000,000
    Hawaii                                $1,000,000              $907,825                        $1,566,121        $1,069,199              $4,543,145                $28,000,000
    Idaho                                 $3,534,300              $200,000                                $0                $0              $3,734,300                         $0
    Illinois                             $40,276,975            $2,653,117                                $0       $48,310,163             $91,240,255              $801,300,000
    Indiana                               $2,308,000              $362,500                                $0        $1,609,188              $4,279,688              $143,000,000
    Iowa                                  $3,990,000              $765,050                                $0          $508,500              $5,263,550              $474,700,000
    Kansas                                $1,903,000              $240,504                           $25,000        $2,752,432              $4,920,936                         $0
    Kentucky                             $23,906,525            $1,311,460                                $0        $6,578,312             $31,796,297              $305,500,000
    Louisiana                            $10,655,603              $846,270                                $0        $3,372,418             $14,874,291             $1,681,000,000
    Maine                                $15,058,856              $891,951                        $3,366,418        $1,481,251             $20,798,476              $606,000,000
    Maryland                             $16,548,360            $1,053,524                          $176,040        $2,330,221             $20,108,145             $1,448,000,000
    Massachusetts                        $22,823,200            $4,937,519                                $0        $7,656,879             $35,417,598             $1,153,000,000
    Michigan                              $9,115,000             $527,404                         $1,272,908        $1,232,686             $12,147,998              $280,000,000
    Minnesota                            $26,077,360            $3,445,615                        $4,253,513        $7,574,807             $41,351,295             $1,008,000,000
    Mississippi                          $12,291,250              $323,376                                $0        $2,544,437             $15,159,063                $70,000,000
    Missouri                              $2,310,109              $259,824                                $0        $6,148,034              $8,717,967             $1,172,000,000
    Montana                               $4,537,145            $1,935,066                        $1,184,279         $315,962               $7,972,452                $70,000,000
    Nebraska                                $350,000            $1,604,628                          $265,000           $97,832              $2,317,460                $23,000,000
    Nevada                                        $0              $581,452                                $0         $339,200                 $920,652                         $0
    New Hampshire                        $11,565,000               $93,425                                $0        $1,132,000             $12,790,425                $65,000,000
    New Jersey                           $14,226,064            $1,206,469                                $0        $5,962,390             $21,394,923              $413,000,000
    New Mexico                            $9,313,011            $1,589,665                          $907,699         $185,705              $11,996,080              $110,000,000
    New York                             $96,926,627          $10,830,431                           $208,390       $52,220,326            $160,185,774             $3,429,250,000
    North Carolina                       $34,009,523            $2,457,205                        $2,405,020       $28,766,498             $67,638,246              $830,000,000
    North Dakota                            $635,000              $669,520                          $716,245           $15,000              $2,035,765                         $0
    Ohio                                 $11,719,620            $2,073,058                                $0        $3,755,203             $17,547,881             $1,363,000,000
    Oklahoma                              $4,734,190              $599,550                        $4,996,777        $2,401,680             $12,732,197              $400,000,000
    Oregon                               $10,051,250              $529,001                          $122,561        $6,569,895             $17,272,707              $461,500,000
    Pennsylvania                         $47,699,971            $5,062,913                                $0        $2,038,828             $54,801,712              $657,500,000
    Puerto Rico                           $1,300,000              $988,041                                $0                $0              $2,288,041                $55,000,000
    Rhode Island                            $750,000             $389,900                                 $0                $0              $1,139,900                         $0
    South Carolina                          $500,000             $992,338                           $149,281        $2,211,905              $3,853,524              $349,000,000
    South Dakota                          $8,166,403              $677,932                        $8,704,551         $722,250              $18,271,136              $130,000,000
    Tennessee                            $11,323,178              $177,600                           $95,000        $5,025,766             $16,621,544                $65,250,000
    Texas                                $21,737,267            $4,827,209                           $32,756       $15,247,856             $41,845,088              $247,000,000
    Utah                                  $2,000,000              $892,500                          $353,000         $120,000               $3,365,500              $100,000,000
    U.S. Virgin Islands                     $770,000                    $0                                $0                $0                $770,000                         $0
    Vermont                              $15,570,549              $490,055                                $0                $0             $16,060,604                $32,000,000
    Virginia                              $7,294,385            $1,523,076                                $0           $76,739              $8,894,200              $711,000,000
    Washington                           $10,651,250            $1,836,815                        $2,591,789        $3,080,991             $18,160,845              $280,000,000
    West Virginia                         $2,439,000              $931,768                                $0                $0              $3,370,768                 $4,000,000
    Wisconsin                            $15,206,986            $1,079,103                        $2,309,724        $6,256,010             $24,851,823             $1,251,000,000
    Wyoming                                       $0                    $0                        $2,124,366                $0              $2,124,366                         $0

           TOTALS                    $690,264,542           $79,470,537                      $47,468,029       $311,634,361         $1,128,837,469              $26,000,000,000


    (1) Consists of awards made under all Native American Programs.

    (2) Consists of New Markets Tax Credit (NMTC) allocatees headquarted in these states. Amounts shown represents amount
        of equity supported by tax credits. Amounts include FY2008 NMTC Supplemental and Appropriated rounds. FY2009 NMTC Awards have not been made as of 09/11/09.




                                                                                         64

                                                         CDFI Fund FY 2009 Performance and Accountability Report
                Appendix C                                          loans, deposits, and other forms of financial and
            GLOSSARY OF TERMS                                       technical assistance. In general, an award is made
                                                                    based on the lender’s success in certain BEA
ALLOCATION (OF TAX CREDITS)                                         Program-qualified activities that were projected in
                                                                    the application for BEA CDFI Funds. The BEA
Through the New Markets Tax Credit Program,                         Program regulations are found at 12 CFR Part 1806.
the CDFI Fund provides a Community
Development Entity with the authority to sell tax                   COMMUNITY DEVELOPMENT ENTITY
credits to investors in exchange for an investment                  (CDE)
in the CDE.
                                                                    Through the New Markets Tax Credit Program, the
BANK                                                                CDFI Fund certifies an entity as a CDE if it is a duly
                                                                    organized entity that is treated as a domestic
Any organization engaged in any or all of the                       corporation or partnership for federal income tax
various functions of banking, i.e., receiving,                      purposes and that (a) has a primary mission of
collecting, transferring, paying, lending, investing,               serving, or providing investment capital for, Low-
dealing, exchanging, and servicing (safe deposit,                   Income Communities or Low-Income Persons; and
custodianship, agency, trusteeship) money and                       (b) maintains accountability to residents of Low-
claims to money both domestically and                               Income Communities through their representation
internationally.                                                    on any governing board of the entity.

In its more specific sense, the term bank refers to                 COMMUNITY DEVELOPMENT FINANCIAL
institutions providing deposit facilities for the                   INSTITUTION (CDFI)
general public, including insured depository
institutions. Banking institutions may be                           Community Development Financial Institution – a
classified into two broad groups: (1) commercial                    nongovernmental entity that meets the following
banks and their central banks; and (2)                              eligibility criteria and is certified by the CDFI Fund
noncommercial bank institutions. Included in the                    as such:
latter group are such institutions as savings and
loan associations, mutual savings banks, and                             1. Has a primary mission of promoting
credit unions. These institutions are often referred                        community development;
to as thrift institutions, although commercial                           2. Serves an eligible investment area or
banks also provide savings and time deposit                                 targeted population;
accounts.                                                                3. Has a predominant business activity
                                                                            of providing Financial Products, loans
BANK ENTERPRISE AWARD                                                       or certain equity investments;
(BEA) PROGRAM                                                            4. In conjunction with its loans or
                                                                            development investments, provides
Through the Bank Enterprise Award (BEA)                                     development activities and services
Program, the CDFI Fund provides awards to insured                           that promote community development
depository institutions that increase their level of                        (ex. financial management technical
activities in the form of loans, investments, services,                     assistance, financial or credit
and technical assistance within distressed                                  counseling); and
communities.                                                             5. Maintains accountability to residents
                                                                            of the investment area or targeted
BEA Program awardees can also provide financial                             population through representation on
assistance to CDFIs through grants, stock purchases,                        its governing board or otherwise.

                                                             65

                                    CDFI Fund FY 2009 Performance and Accountability Report
                                                                     existing Native CDFIs and Native organizations
Additional eligibility criteria apply if the entity is a             seeking to become or create a CDFI.
depository institution holding company or an
insured depository institution. The CDFI Fund’s                      A Native American CDFI is defined as a CDFI with
requirements for CDFI certification and eligibility                  greater than 50 percent of its activities directed to
are found at 12 CFR 1805.200.                                        Native American Communities. In FY 2005, the
                                                                     NACA Program replaced the NACD and NATA
COMMUNITY DEVELOPMENT                                                Programs.
FINANCIAL INSTITUTIONS (CDFI) CDFI
FUND                                                                 NATIVE AMERICAN CDFI
                                                                     DEVELOPMENT (NACD) PROGRAM
A government corporation within the Department
of the Treasury, created to promote economic                         Replaced by the NACA Program in FY 2005, the
revitalization and community development                             Native American CDFI Development (NACD)
through investment in and assistance to CDFIs,                       Program provided Technical Assistance grants to
including enhancing their liquidity. It was created                  “sponsoring organizations,” such as Tribes or entities
by Congress and has the duties and                                   primarily serving Native American Communities, to
responsibilities specified in the Riegle                             help create Native American CDFIs.
Community Development and Regulatory
Improvement Act of 1994.                                             NATIVE AMERICAN TECHNICAL
                                                                     ASSISTANCE (NATA) COMPONENT
COMMUNITY INVESTMENT IMPACT
SYSTEM (CIIS)                                                        Replaced by the NACA Program in FY 2005, the
                                                                     Native American Technical Assistance (NATA)
CIIS is a web-based system managed by the CDFI                       Component was similar to the NACD Program, the
Fund that collects and stores institution-level and                  difference being that the NATA Component was
transaction-level data from CDFIs and CDEs.                          limited to CDFIs and entities proposing to become
                                                                     CDFIs. NATA grants were provided as part of the
EQUITY                                                               Technical Assistance Component of the CDFI
                                                                     Program.
The raising of capital by a corporation issuing or
selling its stock (in contrast with “debt,” which is the             NEW MARKETS TAX CREDIT (NMTC)
raising of capital by issuing bonds or borrowing                     PROGRAM
money).
                                                                     Through the New Markets Tax Credit (NMTC)
CDFI FUNDING ROUND                                                   Program, the CDFI Fund provides allocations of tax
                                                                     credits to qualified Community Development
Each CDFI Fund application and award is identified                   Entities (CDEs). The CDEs in turn provide tax
with a CDFI Funding round that corresponds to the                    credits to private sector investors in exchange for
fiscal year for which the CDFI Fund issues a Notice of               their investment dollars; investment proceeds
Awards Availability (NOFA).                                          received by the CDEs are be used to make loans and
                                                                     equity investments in low-income communities.
NATIVE AMERICAN CDFI
ASSISTANCE (NACA) PROGRAM                                            QUALIFIED EQUITY INVESTMENT (QEI)

Through the Native American CDFI Assistance                          An investment in a CDE through the NMTC
(NACA) Program, introduced in FY 2004, the CDFI                      Program meeting the following criteria: the
Fund provides Financial Assistance awards to eligible                investment proceeds are used by the CDE to make
Native American CDFIs to support their financing                     Qualified Low-Income Community Investments
activities, as well as Technical Assistance awards to                (QLICIs), the CDE designates the investment as a
                                                              66

                                     CDFI Fund FY 2009 Performance and Accountability Report
QEI, and the investment is made by the CDE within                  management and internal operations; and enhancing
5 years from the date of its NMTC allocation.                      an organization’s community impact.

QUALIFIED LOW-INCOME COMMUNITY                                     UNDERSERVED COMMUNITY
INVESTMENT (QLICI)
                                                                   An Underserved Community may include the
1) An investment made by a CDE in, or loan to, any                 following: 1) An Investment Area under the CDFI
qualified active low-income community business; 2)                 Program; 2) A Targeted Population under the CDFI
the purchase from a CDE of any such loan; 3)                       Program;
financial counseling and other services to businesses              3) A Low-Income Community under the NMTC
in, and residents of, low-income communities; and                  Program; and/or 4) A Distressed Community under
4) any equity investment in, or loan to, any CDE.                  the BEA Program. Many Native American
                                                                   Communities also qualify as Underserved
TECHNICAL ASSISTANCE                                               Communities.

Activities that enhance the capacity of an                         “Native American Communities” are defined as any
organization to carry out its business and purpose,                Native American, Alaska Native or Native
such as training of management and other                           Hawaiian populations, lands or Census-equivalent
personnel; developing programs and loan or                         entities, with the exception of State or Tribal
investment loan products; improving financial                      Designated Statistical Areas.




                                                            67

                                   CDFI Fund FY 2009 Performance and Accountability Report
